<html>
<title> - H.R._, ``CABIN FEE ACT OF 2011''; H.R. 2834, ``RECREATIONAL FISHING AND HUNTING HERITAGE AND OPPORTUNITIES ACT''; & H.R. 1444, TO REQUIRE HUNTING ACTIVITIES BE A LAND USE IN ALL MANAGEMENT PLANS FOR FEDERAL LAND UNLESS IT IS CLEARLY INCOMPATIBLE WITH THE PURPOSES FOR WHICH THE FEDERAL LAND IS MANAGED</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






 
 H.R._, ``CABIN FEE ACT OF 2011''; H.R. 2834, ``RECREATIONAL FISHING 
AND HUNTING HERITAGE AND OPPORTUNITIES ACT''; & H.R. 1444, TO REQUIRE 
 HUNTING ACTIVITIES BE A LAND USE IN ALL MANAGEMENT PLANS FOR FEDERAL 
LAND UNLESS IT IS CLEARLY INCOMPATIBLE WITH THE PURPOSES FOR WHICH THE 
                        FEDERAL LAND IS MANAGED

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Friday, September 9, 2011

                               __________

                           Serial No. 112-57

                               __________

       Printed for the use of the Committee on Natural Resources



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

68-266 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, September 9, 2011........................     1

Statement of Members:
    Broun, Hon. Paul C., a Representative in Congress from the 
      State of Georgia...........................................     1
        Prepared statement of....................................     2
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California, Oral statement of...........................    24
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Bailey, Pete, Former Director, National Forest Homeowners and 
      the C2 Coalition...........................................    13
        Prepared statement on Draft Bill.........................    15
    Holtrop, Joel, Deputy Chief, National Forest System, U.S. 
      Forest Service, U.S. Department of Agriculture.............     6
        Prepared statement on H.R. 1444..........................     7
        Prepared statement on H.R. 2834..........................     9
        Prepared statement on Draft Bill.........................    11
    Horn, William P., Director of Federal Affairs, U.S. 
      Sportsmen's Alliance.......................................    31
        Prepared statement on H.R. 2834..........................    32
    Ratcliffe, Bob, Deputy Assistant Director, Renewable 
      Resources and Planning, Bureau of Land Management, U.S. 
      Department of the Interior.................................    25
        Prepared statement on H.R. 2834 and H.R. 1444............    27
    Recce, Susan, Director, Conservation, Wildlife, and Natural 
      Resources, National Rifle Association......................    39
        Prepared statement on H.R. 2834..........................    40
    Simpson, Melissa, Director of Government Affairs, Safari Club 
      International..............................................    35
        Prepared statement on Draft Bill and H.R. 1444...........    36
        ``List of Anti-hunting Regulatory and Administrative 
          Actions over the last 12 months''......................    37

Additional materials supplied:
    Wilderness Society, Letter submitted for the record on H.R. 
      2834.......................................................    52
                                     

LEGISLATIVE HEARING ON DRAFT BILL H.R. _, TO MODIFY THE FOREST 
        SERVICE RECREATION RESIDENCE PROGRAM BY IMPLEMENTING A 
        SIMPLE, EQUITABLE, AND PREDICTABLE PROCEDURE FOR 
        DETERMINING CABIN USER FEES, AND FOR OTHER PURPOSES. 
        ``CABIN FEE ACT OF 2011''; H.R. 2834, TO RECOGNIZE THE 
        HERITAGE OF RECREATIONAL FISHING, HUNTING, AND SHOOTING 
        ON FEDERAL PUBLIC LANDS AND ENSURE CONTINUED 
        OPPORTUNITIES FOR THESE ACTIVITIES. ``RECREATIONAL 
        FISHING AND HUNTING HERITAGE AND OPPORTUNITIES ACT''; & 
        H.R. 1444, TO REQUIRE THAT HUNTING ACTIVITIES BE A LAND 
        USE IN ALL MANAGEMENT PLANS FOR FEDERAL LAND UNDER THE 
        JURISDICTION OF THE SECRETARY OF THE INTERIOR OR THE 
        SECRETARY OF AGRICULTURE TO THE EXTENT THAT SUCH USE IS 
        NOT CLEARLY INCOMPATIBLE WITH THE PURPOSES FOR WHICH 
        THE FEDERAL LAND IS MANAGED, AND FOR OTHER PURPOSES.
                              ----------                              


                       Friday, September 9, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1334, Longworth House Office Building, The Honorable Paul 
C. Broun [Chairman of the Subcommittee] presiding.
    Present: Representatives Broun, Hastings, McClintock, 
Benishek, Grijalva and Costa.
    Mr. Broun. The hearing will come to order. The Subcommittee 
on National Parks, Forests and Public Lands is meeting today to 
hear testimony on three bills that fall within our 
jurisdiction. Under the rules opening statements are limited to 
the Chairman and Ranking Member. However, I ask unanimous 
consent to include any other Members' opening statements in the 
hearing record if submitted to the Clerk by close of business 
today. Hearing no objections, so ordered.

STATEMENT OF THE HONORABLE PAUL C. BROUN, A REPRESENTATIVE FROM 
                      THE STATE OF GEORGIA

    Mr. Broun. I want to thank our colleagues and the other 
witnesses who have agreed to testify today. On the agenda are 
three bills designed to promote and protect wholesome outdoor 
family recreation on public lands.
    Our first bill is the Cabin Fee Act of 2011. This is an 
urgently needed bill to save the popular, nearly century-old 
program under which 14,000 American families have been able to 
build cabins for non-commercial family use in our national 
forests. Our second and third bills, H.R. 1444 and H.R. 2834, 
are needed to provide clear and specific statutory language 
that will protect sportsmen, fish and wildlife agencies, 
Federal land managing agencies, and the taxpayers from lawsuits 
and administrative gridlock.
    Congress has spoken many times on the issue of hunting on 
our multiple-use public lands, and has come down on the side of 
allowing sporting activities to take place under state laws. 
Despite what I think is clear Congressional intent, some 
zealous, but I believe very misguided, groups have continued to 
mount challenges to hunting by seeking to exploit any ambiguity 
in the laws to tie up the agencies in administrative delays or 
to try to find an anti-hunting judge.
    It is past time for Congress to settle the issue once and 
for all, and I am proud to be the author of one of the bills 
that we will take up today.
    [The prepared statement of Mr. Broun follows:]

Statement of The Honorable Paul C. Broun, a Representative in Congress 
                from the State of Georgia, on H.R. 1444

    I would like to thank Chairman Hastings and Chairman Bishop for 
allowing this hearing today on H.R. 1444, a bill I introduced that 
would require that hunting activities be considered as a land use in 
all management plans for federal land, to the extent that it is not 
clearly incompatible with the purposes for which the federal land is 
managed.
    I am an avid hunter and outdoorsman. In fact, I am life member #17 
of Safari Club International and began coming to D.C. as a volunteer 
advocate for them. I am also proud to call myself a life member of The 
National Rifle Association. These are just a few of the numerous 
sporting associations of which I am a Life Member. In fact, a full-
body-mounted African lion and Kodiak bear are just a few of my prized 
trophies that visitors see when they come to my Washington office.
    Hunting is already permitted on most Bureau of Land Management and 
U.S. Fish and Wildlife Service lands. It has provided a positive force 
in habitat conservation, support for wildlife restoration, and 
contributed billions of dollars in benefits to state and regional 
economies throughout the nation.
    I look forward to finding ways to expand hunting on our vast 
federal lands, and I believe that H.R. 1444 can play an important role 
in achieving that goal.
                                 ______
                                 
    Mr. Broun. I will now turn to the Ranking Member for his 
opening remarks.
    Mr. Grijalva. Thank you, Mr. Chairman, and with your 
indulgence, the Full Committee Chairman has a comment and I 
would defer my time at this point, then pick it up after. Sir.
    Mr. Broun. Thank you, Mr. Grijalva. I now recognize the 
Full Committee Chairman, Doc Hastings.

STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE FROM 
                    THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and thank the 
Ranking Member, I hope that is the pattern.
    [Laughter.]
    Mr. Hastings. Thank you again for holding this hearing on 
today's bills, including the Cabin Fee Act legislation. The 
goal of this bill is to create a simple, straightforward, and 
predictable fee schedule for the cabin owners nationwide as 
well as taxpayers and the Forest Service. It will replace the 
current complex and unfair payment system by assigning the 
cabins to tiers based on appraised value. The fees would rise 
with inflation but would otherwise remain fixed so families 
would no longer face sudden unexpected jumps to unaffordable 
levels.
    Last year a similar measure I introduced passed the House 
Natural Resources Committee, but due to the expiration of time 
in the last Congress was not considered on the House Floor. 
This year's legislation improved upon last year's bills in two 
significant ways.
    First, it modifies the fee schedule to include additional 
tiers that will keep the fees reasonable while also ensuring 
sufficient revenue to implement the program. Our Congressional 
Budget Office has yet to provide its score for the bill, and 
turmoil in the real estate market has created uncertainties in 
the data used to score it. I remain optimistic that the bill 
will be revenue neutral with the new fee schedule.
    Second, this bill expands the coverage to include private 
cabins located in all national forests, not just those derived 
from public lands. Many private cabins on Forest Service lands 
are simple, rustic structures hand-built by the grandparents or 
relatives of the current owners early in the last century, and 
passed down from generation to generation. The overwhelming 
majority of these cabins are modest family retreats. During 
these tight economic times, the intent of this bill is to keep 
the fees affordable for people such as teachers, factory 
workers, and retirees and not just millionaires, which is what 
will happen if we don't address the problem now.
    The current system has resulted in unrealistic arbitrary 
fee hikes that are completely unaffordable for average 
families. For example, last year the Seattle Times reported 
that Lake Wenatchee cabin owners--Lake Wenatchee is in my 
district--received notice that their fees would increase by 
more than 1,000 percent, from $1,400 to $17,000 a year. 
Skyrocketing fees almost make these part-time homes 
unmarketable, leaving families who are unable to pay the high 
fees also unable to sell their cabins.
    Having family-owned cabins encourages wholesome outdoor 
recreation which is an important use of our vast public land 
system, and I think that is particularly so when so many of us 
today are increasingly distracted by all the electronic 
products that are on the markets. By encouraging a broad and 
diverse range of activities in our national forests, we foster 
the kind of sound stewardship that allows us to more fully 
obtain the many benefits that these lands can contribute.
    So, thank you again Mr. Chairman for the courtesy of 
allowing me to be here, and thank you for scheduling this 
hearing. I look forward to hearing from the witnesses on this 
bill today. I yield back.
    [The prepared statement of Mr. Hastings follows:]

Statement of The Honorable Doc Hastings, Chairman, Committee on Natural 
            Resources, on H.R. __, The Cabin Fee Act of 2011

    Thank you Mr. Chairman for holding this hearing on today's bills, 
including the Cabin Fee Act legislation.
    The goal of this bill is to create a simple, straightforward and 
predictable fee schedule that benefits cabin owners nationwide, as well 
as taxpayers and the Forest Service. It would replace the current 
complex and unfair payment system by assigning cabins to tiers based on 
appraised value.
    The fees would rise with inflation, but would otherwise remain 
fixed so families would no longer face sudden, unexpected jumps to 
unaffordable levels.
    Last year, a similar measure I introduced passed the House Natural 
Resources Committee, but due to expiration of time of the last 
Congress, was not considered on the House floor.
    This year's legislation improves upon last year's bill in two 
significant ways.
    First, it modifies the fee schedule to include additional tiers 
that will keep the fees reasonable while also ensuring sufficient 
revenue to implement the program.
    While the Congressional Budget Office has not yet provided its 
score for the bill, and turmoil in the real estate market has created 
uncertainties in the data used to score it, I remain optimistic the 
bill will be ``revenue neutral'' with the new fee schedule.
    Second, this bill text expands coverage to include private cabins 
located in all National Forests, not just those derived from public 
lands.
    Many private cabins on Forest Service land are simple, rustic 
structures hand-built by the grandparents or relatives of the current 
owners early in the last century and passed down from generation to 
generation. The overwhelming majority of these cabins are modest family 
retreats.
    During these tight economic times, the intent of this bill is to 
keep the fees affordable for people such as teachers, factory workers 
and retirees, not just millionaires--which is what will happen if we 
don't address the problem now.
    The current system has resulted in unrealistic, arbitrary fee hikes 
that are completely unaffordable for average families. For example, 
last year, the Seattle Times reported that Lake Wenatchee cabin owners 
received notice that their fees would increase more than one thousand 
percent, from $1,400 to more than $17,000 this year.
    Skyrocketing fees also make these part-time homes unmarketable, 
leaving families who are unable to pay the high fees, also unable to 
sell their cabins.
    Having family-owned cabins encourages wholesome outdoor recreation 
which is an important use of our vast system of public lands--
particularly today when many youth are increasingly distracted by 
Ipods, video games and computer screens.
    By encouraging a broad and diverse range of activities in our 
National Forests, we foster the kind of sound stewardship that allows 
us more fully to obtain the many benefits these lands can contribute.
    Thank you, again, for scheduling this hearing and I look forward to 
hearing from the witnesses.
                                 ______
                                 
    Mr. Broun. Thank you, Mr. Chairman, I appreciate your 
statement. It is a good bill, and I hope we can see Congress 
pass it because we need to protect the ability to do that.
    I now recognize Mr. Grijalva for his statement.

         STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, 
           A REPRESENTATIVE FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and as Chairman of 
this Subcommittee in the last Congress, I was pleased to hold 
hearing on the Chairman's Cabin Fee legislation, and to work 
with him to get the bill favorably reported from this 
Committee. I share the Chairman's concern regarding the 
proposed fee increases and look forward to continuing to work 
cooperatively on a solution that might mitigate those increases 
without negatively impacting the Federal budget.
    Regarding the other two measures on today's agenda, 
hunting, fishing, trapping and other recreational activities 
that depend on robust wildlife populations that have flourished 
on Federal lands mostly because Congress has stayed out of the 
way. Most Federal land is open to hunting and fishing and 
Federal regulation is minimal with states managing most of the 
aspects of these activities. As a result, hunting and fishing 
are enormously popular on Federal land and support a multi-
million dollar industry, employing tens of thousands of people 
in outfitting, guiding, and equipment manufacturing.
    An example, roughly eight percent of the visitors to 
national forests between 2005 and 2009 listed hunting as their 
primary activity. That is more than 13 million people in each 
of those years.
    If the threat to these exist, it is not from biased Federal 
land managers or animal rights activists, the real threat to 
hunting and fishing and other wildlife-dependent activities 
comes from Congress in the form of misguided budget priorities 
and shortsighted land management policies that could destroy 
habitat and reduce wildlife populations.
    On the funding front, proposals to slash budgets for 
Federal land management agencies threaten efforts to address 
backlogs of maintenance on roads, trails, campgrounds, and 
other facilities used by hunters, anglers, and other visitors. 
Proposals to virtually eliminate funding for the Land and Water 
Conservation Fund would destroy plans to acquire and preserve 
valuable habitat.
    As urban development swallows more and more open space, 
defunding the land and water conservation fund, as Republicans 
in Congress have proposed to do, would deprive the Federal 
Government of the one tool we could use to preserve 
opportunities for hunting and fishing.
    On the policy front, attacks on the National Environmental 
Policy Act, along with attempts to weaken management of 
wilderness, threaten to further limit opportunities to hunt. 
NEPA provides a tool for assessing the potential impacts of 
Federal land management decisions, including potential impacts 
on hunting, fishing, and other recreational activities. 
Truncating or abandoning the NEPA process to allow unrestricted 
energy development, for example, makes it more likely that 
harmful impacts, including those to hunting and fishing, will 
not be considered or even evaluated.
    Finally, attacks on wilderness are attacks on hunting. If 
all areas of Federal land are open to roads, off-road vehicles, 
oil and gas production, and timber cutting, there will be 
nowhere left for wildlife populations to flourish, as a result 
nowhere left to hunt.
    Despite the critical role wilderness plays in supporting 
wildlife populations, less than three percent of the 
continental United States is designated wilderness and 
opportunities to preserve new wilderness grow more scarce by 
the day. Congress is already failing to adequately manage and 
invest in wildlife populations on Federal land. The two bills 
before us today claim to be pro-hunting and fishing, but 
contain provisions that would only make a bad situation worse. 
Further attacks on NEPA, on wilderness, and on funding for land 
acquisitions are not the answer.
    We appreciate the witnesses being here today and we look 
forward to their thoughts on these proposals and the 
legislation before us. With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Grijalva follows:]

       Statement of The Honorable Raul Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Mr. Chairman, in 2000, Congress passed the Secure Rural Schools Act 
to provide rural counties with a stable source of funding for schools 
and roads. This stable funding provided the certainty these communities 
needed to make important investments in transportation and education.
    Unfortunately, the 109th Congress, under Republican leadership, 
allowed the program to expire.
    It took a new Democratic majority to reauthorize the Secure Rural 
Schools program in the 110th Congress by pursuing legislation that was 
measured and bipartisan.
    I am concerned that history is about to repeat itself. The 
Discussion Draft that is the subject of today's hearing is not 
measured, it is not bipartisan and it represents a significant step 
back toward the old days when funding for local school kids was 
directly tied to cutting down our forests.
    This approach will not work, but more important, it will not gain 
enough support to pass and thus it will not lead to the continuation of 
the program. We stand ready to work with the Majority on a more 
effective proposal.
    The second bill, H.R. 2852, would require the American people to 
give away 24 million acres of the public land that they own to State 
governments. The bill is apparently based on the allegation that 
federal land ownership harms states and localities.
    This claim overlooks the wide variety of federal programs which 
provide direct revenue to states--including Payment In Lieu of Taxes, 
IMPACT Aid, Secure Rural Schools and many others.
    Further, this claim ignores the significant indirect benefits to 
states from federal lands, such as travel and tourism dollars and the 
role these lands play in improving the quality of life and standard of 
living in communities across the West.
    Our public lands are the backbone of the outdoor recreation 
economy, which generates over $730 billion in economic activity, 6.5 
million jobs, and $88 billion in annual state and federal tax revenue.
    Funding for public schools is a complicated and difficult problem 
facing communities across the country. H.R. 2852 is not an appropriate 
or workable solution to these challenges.
    I thank the witnesses for joining us today and look forward to 
their thoughts on these proposals.
                                 ______
                                 
    Mr. Broun. Thank you. Our witnesses today on the Cabin Fee 
Act are Joel Holtrop, Chief Deputy of the Forest Service and 
Peter Bailey of the National Forest Homeowners Association. 
Gentlemen, please take your seats and do it quickly. We are 
really tight on time. We are going to have votes scheduled at 
10:35 to 10:50 a.m., somewhere in that neighborhood, so if you 
would please observe our five-minute rule. I appreciate you all 
being here, and Mr. Holtrop, we will begin with you. You are 
recognized for five minutes.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
  SYSTEM, U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Thank you. And just for clarification, would 
you like my oral statement on all three bills at this time?
    Mr. Broun. Yes, that would be fine. Great, go ahead, 
please, sir.
    Mr. Holtrop. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
provide the Department of Agriculture's views on three bills. I 
would like to start my testimony with the Cabin Fee Act of 
2011.
    As we have previously testified, the Department appreciates 
the over 14,000 cabin owners across the country and the 
recreational experiences they enjoy on National Forest System 
lands. While the Department does not support the legislation as 
currently written, we would like to work with the Committee to 
address areas of concern identified in the written testimony in 
order to capture the advantages that are incorporated in this 
legislation.
    The Cabin User Fee Fairness Act of 2000, or CUFFA, was the 
latest attempt passed by Congress to achieve an equitable fee 
for the use of National Forest System land. As cabin owners 
received notice of the new fees, some experienced dramatic 
increases because the old fees were based on appraisals 
completed 10 to 30 years in the past. Many of the proposed fees 
in this new legislation would be less than those under the 
current law, which results in fees being below market value for 
many of the lots.
    This bill would create nine payment tiers or categories and 
provides for an additional payment on the sale or transfer of 
the cabin. We do not agree with the concept of the transfer fee 
as it would inappropriately involve the Department in the 
disposition of the structures themselves. We do agree with the 
concept of the payment tiers. However, we recommend that the 
fees be based on market value.
    Fees below market value can lead to windfall profits as 
recognized by the market when cabins are sold as the sale 
prices will reflect the value of the locations as much or more 
than the value of the cabins, especially at the higher end 
values.
    The Department understands the financial burdens that some 
cabin owners may face as a result of CUFFA, and we welcome the 
opportunity to work with Congress to create a bill that takes 
into account the needs of cabin owners, other National Forest 
System users, the American taxpayers, and that can be 
administered efficiently.
    Regarding H.R. 1444 and 2834, I would like to emphasize 
that the Forest Service has been a very strong supporter of 
hunting and fishing on the national forests and grasslands 
since the agency was created in 1905. It has been, and 
continues to be, a large part of our heritage. The Forest 
Service supports these activities by providing opportunities to 
enjoy hunting and fishing on the National Forest System lands 
throughout the country. Furthermore, the America's Great 
Outdoors Initiative supports these same activities by 
reconnecting Americans to our nation's land, water, and 
wildlife.
    However, the Department does not support these bills. The 
intent is already achieved through existing laws and agency 
policy. An enactment would neither enhance nor improve existing 
hunting or fishing opportunities on our national forests and 
grasslands.
    Particularly regarding H.R. 2834, we are additionally 
concerned that certain provisions in the legislation would be 
in conflict with existing statutes and agency policy, establish 
unnecessary analysis and reporting requirements, require 
consultation with executive order advisory councils that 
already occurs, and establish administratively costly annual 
Congressional notification processes. And finally, this bill 
contains provisions that would seriously undermine the 
Wilderness Act of 1964.
    This concludes my statement and I will answer any questions 
that you have.
    [The prepared statements of Mr. Holtrop follows:]

 Statement of Joel Holtrop, Deputy Chief, National Forest System, U.S. 
 Forest Service, U.S. Department of Agriculture, on H.R. 1444, a bill 
 ``To require that hunting activities be a land use in all management 
 plans for Federal land under the jurisdiction of the Secretary of the 
Interior or the Secretary of Agriculture to the extent that such use is 
 not clearly incompatible with the purposes for which the Federal land 
                 is managed, and for other purposes''.

    Mr. Chairman and Members of the Subcommittee, I am Joel Holtrop, 
Deputy Chief for the U.S. Forest Service. Thank you for the opportunity 
to appear before you to provide the views of the U.S. Department of 
Agriculture (USDA) Forest Service on H.R. 1444.
    First, I would like to emphasize that the Forest Service has been a 
very strong supporter of hunting and fishing on the nation's National 
Forests and Grasslands since the agency was created in 1905. The Forest 
Service supports these activities by providing opportunities to enjoy 
hunting and fishing over much of the National Forest System (NFS) land 
throughout the country. Furthermore, The America's Great Outdoors 
Initiative (AGO), established by President Obama in 2010, supports 
these same activities by reconnecting Americans to our nation's land, 
water and wildlife. We very much appreciate the outstanding 
contributions we receive from our partners, including States and 
hunting and fishing organizations that support the conservation of fish 
and wildlife and their habitats on our federal public lands. Their 
steadfast support through partnership projects and volunteer work on 
federal public lands, as well as, their willingness to support state 
management of fish and wildlife though fishing and hunting fees are 
widely recognized as a significant factor in the success of fish and 
wildlife management in North America.
    H.R. 1444 is intended to ensure continued hunting and fishing 
opportunities on federal public lands, including the 193 million acres 
of NFS lands on 155 National Forests and 20 Grasslands administered by 
the U.S. Forest Service. Specifically, as it pertains to the Forest 
Service, H.R. 1444 would require the agency, when developing or 
approving a management plan or an amendment to a management plan, to 
ensure that hunting activities are allowed as a use of NFS lands to the 
extent that such use is not clearly incompatible with the purposes for 
which the Federal land is managed. In addition, the legislation would 
provide that fees charged related to hunting activities on NFS land are 
to be retained to offset costs directly related to management of 
hunting on NFS land and that the fees are to be limited to what the 
Secretary reasonably estimates to be necessary to offset costs directly 
related to management of hunting on the NFS land upon which hunting 
activities related to the fee are conducted.
    The Department does not support this legislation which is 
unnecessary and would not enhance or improve existing hunting and 
fishing on National Forests and Grasslands.
    The Multiple-Use Sustained-Yield Act is an important statute that 
guides management of our NFS lands. Hunting and fishing activities are 
very important components of the Forest Service multiple-use mission. 
Although many other recreational activities are also popular on our 
National Forests and Grasslands, hunting and fishing remain very 
important to thousands of the Nation's sportsman and sportswomen. The 
latest National Visitor Use Monitoring (NVUM) data collected over the 
past 10 years shows that on an annual basis more than 13,022,068 
visitors to NFS land participated in hunting as their main activity, 
and another 14,050.126 visitors fished as their main activity. This use 
represents 7.6% and 8.2% (respectively) of all annual recreation 
visitations to all NFS land.
    Much of the NFS land has been, and continues to be, open to hunting 
and fishing. However, Forest Service officials may authorize very 
localized closures on NFS lands under special circumstances, usually to 
protect public health and safety, such as areas in the vicinity of 
buildings and campgrounds. For example, shooting is prohibited in areas 
near residences, buildings and campgrounds.
    As part of the land management planning process, the Forest Service 
analyzes opportunities for hunting and fishing as recreational 
activities. Within the planning process, the decision to allow or limit 
various recreation activities is complex. Conflicts between user groups 
can be a legitimate reason to limit or allow various recreation 
activities. In the rare instances where hunting or fishing is 
restricted, the rationale for such a decision is clearly described.
    Section 1(c)(2)(B) of H.R. 1444 provides that '' a fee charged by 
any entity related to hunting activities on Federal land that is in 
excess of that needed to recoup costs of management of the Federal land 
shall be deemed to be a restriction on hunting.'' Additionally, section 
1(d) of the bill would authorize the Forest Service to retain fees for 
hunting activities on NFS lands to offset the costs of managing hunting 
on NFS lands and would limit the amount of fees that may be collected 
by the Forest Service. The Forest Service does not charge fees to hunt 
or fish on NFS lands. Fees are charged by States and by outfitter and 
guides, neither of which is collected by the Forest Service.
    In summary, the Forest Service has a long history and active policy 
and practice of strongly supporting hunting and fishing opportunities 
on the public's National Forests and Grasslands. Much of the NFS lands 
are available for these recreational activities. The intent of this 
bill is already achieved through existing laws and agency policy, and 
enactment would neither enhance nor improve existing hunting or fishing 
opportunities on our National Forests and Grasslands.
    Mr. Chairman and Members of the Subcommittee this concludes my 
testimony. I will be happy to answer any of your questions.
                                 ______
                                 

 Statement of Joel Holtrop, Deputy Chief, National Forest System, U.S. 
   Forest Service, U.S. Department of Agriculture, on H.R. 2834, to 
 recognize the heritage of recreational fishing, hunting, and shooting 
 on federal public lands and ensure continued opportunities for these 
                              activities.

    Mr. Chairman and Members of the Subcommittee, I am Joel Holtrop, 
Deputy Chief for the U.S. Forest Service. Thank you for the opportunity 
to appear before you to provide the views of the U.S. Department of 
Agriculture (USDA) Forest Service on H.R. 2834.
    First, I would like to emphasize that the Forest Service has been a 
very strong supporter of fishing, hunting and shooting activities on 
National Forests and Grasslands since the agency was created in 1905. 
Not only does the Forest Service support these activities, the Forest 
Service provides opportunities to enjoy hunting and fishing and 
recreational shooting over much of the NFS land throughout the country.
    H.R. 2834 is intended to ensure continued recreational fishing, 
hunting and shooting opportunities on federal public lands, including 
the 193 million acres of National Forest System (NFS) lands on the 155 
National Forests and 20 Grasslands administered by the U.S. Forest 
Service. The Department opposes H.R. 2834 which is unnecessary and 
would not enhance or improve existing fishing, hunting and shooting 
opportunities on National Forests and Grasslands. Additionally, we are 
concerned that certain provisions in the legislation would be in 
conflict with existing statutes and agency policy, establish 
unnecessary analysis and reporting requirements, require consultation 
with Executive Order advisory councils that already occur, and 
establish annual Congressional notification and approval processes for 
closures of National Forests and Grasslands determined by local land 
managers to be necessary to protect public health and safety. And 
finally, this act contains provisions that would undermine the 
Wilderness Act of 1964. H.R. 2834 was only formally introduced three 
days before this hearing, the Department has not had sufficient time to 
conduct an in-depth analysis of the legislation as introduced. Our 
testimony today is based upon a discussion draft of the bill. We would 
like to reserve the right to submit additional comments about the 
introduced bill.
    The Forest Service coordinates with other federal agencies, states, 
non-profit organizations and community groups in efforts to provide 
fishing, hunting and shooting opportunities as well as a wide-spectrum 
of other recreational opportunities. The agency has relationships with 
the recreational fishing, hunting, and shooting communities such as the 
Shooting Sports Roundtable, Association of Fish and Wildlife Agencies, 
and the Wildlife Hunting Heritage Conservation Council and we keep them 
informed about pending federal actions through planning and 
environmental process requirements. We very much appreciate the 
outstanding contributions from States and hunting and fishing 
organizations that support the conservation of fish and wildlife and 
their habitats on our public lands. Their steadfast support through 
partnership projects and volunteer work on public lands, as well as 
their willingness to support state management of fish and wildlife 
though fishing and hunting fees, are widely recognized as a significant 
factor in the success of fish and wildlife management in North America.
    Although many other recreational activities are also popular on our 
National Forests and Grasslands, fishing, hunting and shooting sports 
remain very important to thousands of hunters and fishermen. The latest 
National Visitor Use Monitoring (NVUM) data shows that the U.S. Forest 
Service National Forests had 13,022,068 visitors that participated in 
hunting as their main activity, and 14,050,126 visitors that fished as 
their main activity. This represents 7.6% and 8.2% (respectively) of 
all annual recreation visitations to all National Forests.
Definitions--Section 3
    Hunting, recreational fishing, and recreational shooting are 
defined very broadly to include these activities when authorized under 
special use permit, i.e. when hunting and fishing are authorized as 
outfitting and guiding, or when a shooting range is authorized as a 
facility.
Planning--Section 4(c)
    The Forest Service analyzes opportunities for hunting, fishing and 
shooting as recreational activities in the Land Management Planning 
process. Section 4 (c)(1)(A) would add analysis requirements to various 
public land planning documents that would potentially add costs and 
time to federal decision making. Also, in regards to forest planning, 
the decision to allow or limit various recreation activities is 
complex. For example, it should be recognized that conflicts between 
uses can be a legitimate reason to limit or allow various recreation 
activities. These choices are best made in local planning efforts.
    The Forest Service opposes the statement in section 4(c)(1)(B) of 
H.R. 2834that any decisions made and actions taken on these or any 
other activities described in this H.R. 2834shall not be deemed major 
Federal actions. Exempting these activities from current National 
Environmental Policy Act (NEPA) regulations and the attendant 
environmental review processes would impair the Forest Service's 
ability to accurately assess the likely impacts of our decisions to 
manage NFS lands. Properly developed NEPA reviews are a critical tool 
for public involvement and they improve decision-making by allowing the 
responsible official to evaluate ways to resolve resource use conflicts 
and address issues that the public raises. The Forest Service defers to 
the DOI regarding the implications of this section on the National 
Wildlife Refuge System.
    Further, Section 4(c) (1) (B), of H.R. 2834 specifically prohibits 
the analysis of hunting, fishing, or shooting opportunities that occurs 
on adjacent public or private lands. Contrary to H.R. 2834, the Forest 
Service believes it is both prudent and important to consider 
cumulative effects for proposed actions on NFS lands during the 
decision making process, including consideration of activities that 
occur or can be expected to occur on private lands or other public 
lands adjacent to NFS lands. Additionally, cumulative effects analyses 
help avoid duplication of activities (such as shooting ranges that are 
on other lands nearby) and the resulting increased impacts. Conversely, 
Section 4 (c) (1) (A) would require more specific evaluations of the 
effects of other plans for the use of NFS lands (such as travel 
management, conservation, land resource management) on opportunities to 
engage in recreational fishing, hunting or shooting. Hunting and 
fishing activities currently are and should continue to be considered 
when developing these plans and accompanying NEPA analyses, rather than 
establishing a new process. The additional evaluation process required 
by this bill is unnecessary.
Public Notification--Section 4(d)(1).
    Almost all of the National Forest System (NFS) land managed by the 
Forest Service has been, and continues to be, open to fishing, hunting 
and shooting. These are all valued recreational opportunities that the 
agency provides under our broad multiple-use mandate. However, Forest 
Service officials may authorize very localized closures on NFS lands 
under special circumstances, usually to protect public health and 
safety, such as areas in the vicinity of buildings and campgrounds. Due 
to the bills requirement for issuance of a public notice prior to 
implementation of closures or restrictions, emergency closures for 
public safety would not be allowed. This is not in the best interest of 
all forest users and adjacent communities. In addition to severely 
curtailing our ability to provide for public safety, advanced public 
notice on closures or restrictions on NFS lands such as individual 
closures or as a compilation of closures on an annual basis, would 
affect our ability to appropriately manage non-emergency situations 
that warrant closures, including habitat management and conservation 
for threatened and endangered species and areas recently burned by 
wildfire.
Leasing -Section 4(d) (2)
    The bill would allow for leasing of NFS lands for shooting ranges 
(Section 4 (d) (2)). Currently, the Forest Service allows for shooting 
ranges through special use permits issued pursuant to the Term Permit 
Act. Utilizing special use permits adequately allows for shooting 
ranges, leasing is not a needed tool. The Forest Service allows for 
dispersed shooting opportunities (equivalent to ``informal'' shooting 
opportunities) on NFS lands without a special use permit or a lease.
Wilderness--Section 4(e)
    The language in this bill regarding wilderness (Section 4 (e)) 
would supersede the Wilderness Act of 1964. Wilderness should be 
managed to provide opportunities for recreational use and enjoyment and 
understanding of the area as wilderness, consistent with the primary 
responsibility of preserving the wilderness character of the area. 
Hunting and fishing related opportunities are currently managed by the 
Forest Service to be consistent with preserving wilderness character.
Reporting--Section 4(f)
    Section 4(f) would add annual reporting requirements adding 
unnecessary costs to gather, maintain, and report data on the agencies 
business costs, including those associated with the Paperwork Reduction 
Act. The Shooting Sports Roundtable Memorandum of Understanding (signed 
by 40 federal, state and non-government partners) includes reporting on 
a number of hunting/shooting items of interest. Reporting on NFS 
closures can be accommodated through this very productive and effective 
partnership.
Preference--Section 4(h)
    Section 4(h) states that no preference is given to shooting, 
hunting and fishing over other activities. However, other provisions in 
H.R. 2834 are clearly designed to limit the agency's discretionary 
authority related to those activities. For example, section 4 (a) 
states that the Agency must facilitate use of, and access to, federal 
lands for fishing, sport hunting, and recreational shooting. Section 4 
(b) (1) states that lands must be managed in a manner that supports and 
facilitates recreational fishing, hunting, and shooting opportunities. 
Section 4 (c) (1) requires that federal land planning documents 
evaluate effects on opportunities to engage in recreational fishing, 
hunting, or shooting. All of these requirements appear to favor these 
three activities at the expense of other activities on NFS lands. As an 
agency with multiple-use management responsibilities, the Forest 
Service is committed to providing fishing and hunting related 
activities as well as a spectrum of other uses where they can be 
conducted safely while minimizing conflicts among user groups and 
without environmental damage.
Consultation--Section 4(i)
    Section 4(i) directs the agencies to consult with respective 
advisory councils as established in Executive Order 12962 (Recreational 
Fisheries, June 1995) and Executive Order (EO) 13443 (Facilitation of 
Hunting Heritage and Wildlife Conservation, August 2007) as amended. 
This direction is unnecessary, as the Forest Service is actively 
involved in carrying out EO 12962, actively participates in the 
National Recreational Fisheries Coordination Council, is actively 
involved in carrying out EO 13443, and is an ``ex officio'' member of 
the Wildlife Hunting Heritage Conservation Council, the Federal 
Advisory Committee established pursuant to EO 13443.
    In summary, the Forest Service has a long history and active policy 
and practice of strongly supporting hunting, fishing and shooting 
recreational opportunities on the public's National Forests and 
Grasslands. Almost all of the NFS lands are available for these 
recreational activities. The intent of this bill is already achieved 
through existing Statute and agency policy. We do not believe this 
legislation is necessary. This legislation does not enhance or improve 
existing fishing, hunting and shooting opportunities on our National 
Forests and Grasslands. We are concerned that some language would be in 
conflict with existing legislation and agency policy, establish 
unnecessary analysis and reporting requirements, require consultation 
with Executive Order advisory councils that already occurs, and 
establish annual Congressional notification and approval for necessary 
closures exceeding a total of 640 acres across the entire National 
Forest System.
    Mr. Chairman and Members of the Subcommittee this concludes my 
testimony. I will be happy to answer any of your questions.
                                 ______
                                 

 Statement of Joel Holtrop, Deputy Chief, National Forest System, U.S. 
 Forest Service, U.S. Department of Agriculture, on H.R. _, The Cabin 
                            Fee Act of 2011

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on H.R. ____, the Cabin Fee Act of 2011. Our 
testimony today is based upon a discussion draft of this bill, as the 
bill has not yet been introduced. As we previously testified on April 
22, 2010, the Department appreciates the over 14,000 cabin owners 
across the country and the recreational experiences they enjoy on 
National Forest System (NFS) lands.
    While the Department does not support the legislation as currently 
written, we would like to work with the Committee to address areas of 
concern identified in this testimony in order to capture some of the 
advantages that are incorporated in this draft legislation.
    Before describing the challenges of this bill, it is important to 
consider the history of this program. In the early part of the 
twentieth century, the Forest Service began introducing Americans to 
the beauty and grandeur of their National Forests. One way to 
accomplish this objective was to permit individuals to build cabins for 
summertime occupancy within the National Forests. Cabin owners were 
permitted to occupy NFS land during the summer months in exchange for a 
fee. In 1915, the agency began to issue permits for up to twenty years 
for occupancy of NFS land. At that time, there was relatively little 
recreational use of the National Forests.
    Today, the National Forests host over 171 million visitors per 
year. When this recreational cabin program began, there was limited 
interest in building and owning a remote cabin on NFS land. Today, 
similar land at ski resorts, near lakes, and remote mountain settings 
are highly prized, selling for prices beyond the means of many 
Americans. In the early years, permit fees were nominal, but since the 
1950s, the Forest Service has been mandated to obtain fees 
approximating market value for the use of NFS land. Increasing fees 
have led to controversy and have resulted in enactment of multiple fee 
moratoriums and caps over the years.
    Cabin User Fee Fairness Act of 2000 (CUFFA) was the latest attempt 
to achieve an equitable fee for the use of National Forest System land. 
CUFFA prescribes the parameters the agency must follow in conducting 
appraisals and establishing fees, which are based on five percent of 
the appraised market value of the lot under permit. The agency began 
the appraisal process pursuant to CUFFA in 2007, and will be continuing 
that effort through 2012. As cabin owners received notice of the new 
fees, some have experienced dramatic increases because the old fees 
were based on appraisals completed ten to thirty years in the past. In 
response, Congress included appropriations language for FY2010 which 
limited fee increases to no more than 25% of the fee paid in calendar 
year 2009.
    There are a number of examples of families who have had cabins for 
generations, but are having difficulty paying the new fees. However, 
there are also examples where low annual fees in the past have led to 
significant financial gains when cabin owners have sold their cabins 
for considerably more than the value of the structure, essentially 
benefiting from a lower than market value for their use of public land. 
When this occurs, cabin owners are, in effect, selling the location of 
their cabin, which is owned by the American people. Some cabins have 
sold at a premium price, only to be torn down by the new owner and 
replaced with a new structure.
    This bill would replace the current fee structure under CUFFA on 
recreation residence cabins on National Forest System lands reserved 
from the public domain. This bill under section 3(b)(2), will create 
nine payment tiers or categories and provide for an additional payment 
under section 4 on the sale or transfer of the cabin as referenced in 
the transfer fees. We agree with the concept of the payment tiers; 
however, we recommend that the fees be based on market value. If the 
payment tiers are based on market value, the transfer fee section could 
be eliminated. This bill does not return a fee based upon market value, 
especially those in the ninth tier.
    H.R. ___ would revise the procedures for determining the amount an 
owner of a cabin on the National Forests must pay to lease the 
underlying public property. Our projections indicate that enactment of 
H.R. ___ in its current form would result in fee revenues significantly 
below the fee revenues expected to be generated under current law, with 
some cabin owners potentially being subject to fees below the market 
value of their property.
    The Department understands the financial burdens that some current 
cabin owners may face as a result of CUFFA. The Department welcomes the 
opportunity to work with Congress to create a bill that takes into 
account the needs of cabin owners, other users of the National Forests, 
and the taxpayer, and that can be administered without undue burden on 
the agency or cabin owners.
    Here are our concerns with the bill as written:
    Section 3, Fee Amount: Our analyses indicate that many of the 
proposed fees would be less than those under current law which results 
in fees being below market value for many of the lots. As previously 
noted, fees below market value can lead to windfall profits as 
recognized by the market when cabins are sold, as the sale prices will 
reflect the value of the locations as much or more than the value of 
the cabins, especially at the higher end values. When the buyer of a 
cabin knows he or she will be paying market value for the location, 
prices tend to reflect only the value of the structure being conveyed. 
To reduce the likelihood of windfall profits, the proposed fee schedule 
should be based on market value or a percentage thereof. In addition, 
to reduce the administrative burden of billing or reimbursing fees due 
to changes in the fee estimate, the appraisals should be updated as 
scheduled and in place prior to implementation of any new fee 
legislation. The basis for establishing the fee amounts for the 
individual Tier levels should be based on first and second level 
appraisals and other indicators of market value. The assignment by the 
Agency of individual Tier levels for the cabin holders should be 
administrative in nature.
    Section 3 (d) (1) Effect of Destruction, Substantial Damage, or 
Loss of Access: This section deals primarily with the management of the 
cabins and prescribes a course of action due to destruction, 
substantial damage, or loss of access. With the exception of the loss 
of access, this section of the bill will cause additional 
administration burden, costs, and is unnecessary as it pertains to the 
structures (cabin, outbuilding, etc. . .) occupying the lot.
    Section 4, Cabin Transfer Fees: H.R. ___ would require the 
Department to verify the price at which these private cabins are sold 
and subsequently obtain a payment from the seller based on a percentage 
of the sale. The Department recommends that Section 4 of this bill as 
it is currently drafted be deleted. The fundamental purpose of the 
Recreation Residence program is to provide the land for the cabins and 
USDA should not be involved in the disposition or assessment of the 
structures that occupy the land.
    Need to study cabin lots that may have lost their National Forest 
character: Over time, occupancy of some ``summer'' cabins has evolved 
into four-season use, particularly those located on the periphery of 
the National Forests. While year-round use remains contrary to agency 
policy, administration of these cabins can become more complex as 
owners desire typical public services found in residential 
subdivisions; such as electric, phone, cable, and sewer. In addition, 
their proximity and similarity to neighboring private subdivisions, 
suggests that some of these lots may have lost their National Forest 
character. The Department would like the opportunity to study this 
issue more carefully and to consider options to more effectively manage 
these areas.
    Technical Changes: Additionally, there are a number of additional 
technical suggestions which we would like to work with the Committee to 
address.
    We acknowledge that there are advantages to this bill from an 
administrative perspective. For example, it would reduce the agency's 
appraisal costs. For cabin owners, enactment of H.R. ___ would provide 
certainty in terms of future fees. Again, we welcome the opportunity to 
work with the Committee to develop legislation that is also fair to 
taxpayers and other users of the National Forests and Grasslands, and 
can be administered without undue burden on the agency or cabin owners.
    This concludes my statement and I would be happy to answer any 
questions you may have. We would like to reserve the right to submit 
additional comments about the bill once it is introduced.
                                 ______
                                 
    Mr. Broun. Thank you, Mr. Holtrop. Mr. Bailey, you are 
recognized for five minutes. If you would like to comment on 
all three, that is fine, too.

          STATEMENT OF PETE BAILEY, FORMER DIRECTOR, 
                   NATIONAL FOREST HOMEOWNERS

    Mr. Bailey. Good morning, Mr. Chairman and Members of the 
Committee, and I want to thank you, Mr. Hastings, for your 
strong support of this bill.
    As you know, it is a very similar bill to the Cabin Fee Act 
of 2010 that you introduced in the 111th Congress along with 27 
bipartisan cosponsors. H.R. 4888 was favorably reported by the 
Natural Resources Committee last September. At last year's 
hearing before this Committee, long-time cabin owners of modest 
means with families who have loved and maintained their cabins 
for generations expressed their deep concern that the cabin 
stewardship is being jeopardized by high fees.
    The current use of fee simple land appraisals to set fees 
as mandated by the Cabin Users Fee Fairness Act, or CUFFA, 
fails to determine actual market value because of the highly 
restricted nature of our use is not valued in the CUFFA 
appraisal process. Interdependent equity interests where the 
permittee owns the cabin and the government owns the land are 
difficult and subjected to separate. The Cabin Fee Act 
acknowledges these interdependent interests and offers needed 
reform.
    The Act recognizes that cabin owners contribute value to 
the land and location at their expense. Cabin owners maintain 
their lots, remove dangerous trees and non-native vegetation 
while many often organize fire safety efforts and often provide 
utility infrastructure, including power, water systems, sewer, 
and septic systems.
    We believe nearly 35 percent of cabin owners will reach 
their affordability break point under CUFFA. When these folks 
try to sell and can't because of above market value fees, we 
estimate roughly 15 percent of the cabins will have to be torn 
down or removed at the owner's expense, causing a 30 percent 
drop in U.S. Treasury fee revenue with corresponding loss of 
local tax revenue and other forest stewardship benefits.
    This Act provides for a reasonable user fee index annually 
that helps maintain cabin value and does not destroy the 
ability to sell the cabin. Instead of fees ranging from $125 to 
an astonishing $76,000 annually, under CUFFA user fees will 
range from $500 to $4,500 per year where the highest fee is 
nine times the lowest, not 100 times the lowest.
    Permitted lots will be assigned to one of nine fee tiers 
based on the rank order of current appraised values when CUFFA 
is completed. The lower eight percent of appraised values are 
assigned to the $500 tier, the highest four percent are 
assigned to the $4,500 tier. The total revenue projected is $30 
million.
    A transfer fee intended to capture the location value of a 
cabin site is paid when the value is actually realized at the 
time of sale of the cabin, thus reducing questioned windfall 
profits.
    This new fee structure compares favorably to the broader 
market of similar private and public cabin lease programs. A 
comprehensive survey examined the market for cabins and 
programs similar to the Recreation Residents Program and 
further validates the use of public forest lands for recreation 
purposes. The 11,000 cabins reviewed had use fees that varied 
with permit and lease terms, of course, and location 
differences, but the average user fee was less than $1,000, 
which is less than half of the average fee under the Cabin Fee 
Act, showing that the proposed fee structure provides a fair 
return to the U.S. Government and is based on sound market 
principles.
    The 2011 Cabin Fee Act improves last year's bill in three 
ways. Chairman Hastings has outlined a few of those. The latest 
Forest Service cabin appraisal data shows that less revenue 
will be generated under CUFFA than had previously been 
projected, so it is possible to adjust the fee tier percentages 
and still generate the same amount of revenue projected under 
CUFFA.
    Second, during the three-year transition period from CUFFA 
to Cabin Fee Act fees some cabin owners might have paid higher 
or lower fees under CUFFA than under the Cabin Fee Act. These 
differences would have received credits or debits for future 
Cabin Fee Act fees. The 2011 Cabin Fee Act drops that complex 
procedure and simply provides that such transition fee 
increases cannot exceed 25 percent per year.
    And third, last year's bill applied only to cabins on 
national forests derived from the public domain. The 2011 Cabin 
Fee Act dropped that limitation and the legislation now applies 
to all cabins on all national forests.
    Mr. Chairman, the Cabin Fee Act of 2011 will preserve a 
cherished program that has been a major source of outdoor 
recreation for thousands of American families for nearly a 
century while continuing to provide a fair return to the 
Treasury. It is a market-based approach that correctly balances 
the interests and needs of cabin owners with the public 
interest by obtaining a fair market return on these public 
lands. We urge that it be enacted into law, and thank you.
    [The prepared statement of Mr. Bailey follows:]

     Statement of Pete Bailey, National Forest Homeowners and the 
           C2 Coalition, Regarding the Cabin Fee Act of 2011

Introduction
    Good morning, Mr. Chairman and Members of the Committee.
    I am Pete Bailey from Tacoma, Washington, and I am pleased to 
present this statement of the National Forest Homeowners and the C2 
Coalition of Cabin Owner Organizations in support of the Cabin Fee Act 
of 2011. There are more than 14,000 cabin owners who have permits for 
recreation residences on the national forests and who have a vital 
interest in the legislation now being considered. I have had my cabin 
since October, 2000, on Lake Quinault in the Olympic National Forest.
    We are especially appreciative to you, Mr. Chairman, for your 
support of this bill. As you know, it is very similar to the Cabin Fee 
Act of 2010 (H.R. 4888) that you introduced in the 111th Congress more 
than a year ago, along with 27 bi-partisan cosponsors. That bill was 
favorably reported by the Natural Resources Committee on September 16, 
2010, but did not receive a floor vote. Senator Tester introduced S. 
3929 as a companion bill in the Senate.
    At the House hearing last year, testimony and written statements 
were submitted that included strong and touching statements from long-
time cabin owners of modest means whose families for generations have 
tenaciously maintained their cabins through hardships and challenges 
but who are now concerned that their cabin stewardship is being 
jeopardized by sharply rising fees.
    The 2011 Cabin Fee Act is very similar to the bill approved by this 
committee last year and this statement will later briefly compare the 
two bills. Suffice it to say for now that this year's Cabin Fee Act 
does not differ in any significant respect from last year's bill and is 
even more strongly supported by cabin owners.
Problems with CUFFA
    Since the passage of the Organic Act in 1915, the Recreation 
Residence Program has been a valid use of National Forest lands, but it 
is now being threatened by the fee setting process mandated by the 
Cabin User Fee Fairness Act of 2000, commonly referred to as CUFFA. 
(Note: We will adopt the more commonly used terms ``cabin program'' and 
``cabin owners'' instead of the more technically correct ``recreation 
residence program'' and ``recreation residences.'') Use of fee simple 
land appraisals to set value has not worked for more than 40 years due 
to interdependent equity interests whereby the permittee owns the cabin 
while the government owns the land. Both location and the cabin 
structure influence market rents and sale prices. Separating these two 
influences is difficult and subjective. The Cabin Fee Act, which is 
supported by most cabin owners, acknowledges the real nature of a 
Program with interdependent interests and offers a new and badly needed 
system. The Act will simplify and improve the fee-setting process. It 
will encourage better relationships between the Forest Service and 
permittees and will reduce agency administrative workload and expenses.
    The Act institutes a fair and reasonable annual User Fee that 
recognizes the influence of cabin location by establishing a Transfer 
Fee upon sale. The Act provides fair compensation to the U.S taxpayer, 
while recognizing that cabin owners convey value to the land and 
location at their expense. Cabin owners must maintain the site and 
often remove dangerous trees and non-native vegetation, organize 
FireSafe efforts and often provide and pay for utility infrastructure 
including power, water systems, septic and sewer systems that become 
attached to the land and benefit all users of the forests.
    Survey data compiled by the National Forest Homeowners indicate 
that almost 35% of cabin owners will reach their affordability 
breakpoint in the current CUFFA appraisal cycle. Excessively high fees 
will be disincentives to potential buyers and, as a result, we estimate 
roughly 15% of cabins (2,100) will have to be torn down or removed at 
the expense of the owners. This will cause U.S. Treasury revenue to 
decline approximately 30% from the total potential fee revenue under 
CUFFA, while local governments and communities will also suffer tax 
revenue losses. The loss of cabins will also reduce volunteer labor, 
forest stewardship and infrastructure support contributed by cabin 
owners.
The Cabin Fee Act of 2011
    The Act establishes an affordable User Fee, indexed annually, that 
will help to maintain cabin value and not destroy the ability to sell 
the cabin if the current owner cannot or decides not to pay the fee. 
Instead of fees ranging from $125 to an astonishing $76,000 annually 
under CUFFA, annual User Fees will range from $500 to $4500 per year. 
Nine fee tiers will replace the current CUFFA fee structure. The User 
Fee tiers were determined by balancing the rights and privileges that 
all permit holders share, regardless of location, while acknowledging 
that location does influence the value of the permitted use. This 
balance of common rights with differences for location yields a fee 
structure where the highest fee is nine times the lowest fee. This 
contrasts with fees under CUFFA where the highest fees are more than 
100 times greater than the lowest fees.
    The Cabin Fee Act requires the assignment of each permitted lot to 
one of nine fee tiers, based on the rank order of current appraised 
values. The lowest 8% of appraised lot values are assigned to the $500 
tier. The highest 4% are assigned to the $4,500 tier. Following this 
process, User Fee revenue is projected to be about $30M when fully 
implemented. User Fees are adjusted annually by a rolling average of 
the IPD-GDP index. This broadly-used Department of Commerce index 
provides for a reasonable, straightforward method for increasing fees 
annually, while ensuring that user fees keep pace with the market.
    The Transfer Fee is intended to capture the value influence of the 
National Forest location of these cabins and is paid when that value 
influence is actually realized at the time of sale. The Transfer Fee 
addresses the possibility of questionable ``windfall'' profits alleged 
by some. The Transfer Fee has two components. First, a flat fee of 
$1,000 is collected for all cabin sales and transfers. Second, if the 
sale price exceeds $250,000, an additional 5% is collected on the sale 
price exceeding $250,000 up to $500,000 and an additional 10% on sale 
amounts exceeding $500,000.
    Cabin marketability is not encumbered, because cabin owners will 
have full knowledge of the indexed annual User Fee and both a seller 
and buyer can factor the Transfer Fee into their negotiations at the 
time of sale. Moreover, the Act provides long-term annual revenues to 
the U.S. Treasury comparable to CUFFA, particularly after consideration 
of cost savings by the elimination of expensive appraisals and revenue 
lost from abandoned cabins that will occur if CUFFA stands unchanged.
    With the elimination of the appraisal process under CUFFA, the 
Forest Service will save approximately $1 million annually. The 
complexity and expense of the appraisal process will be replaced with a 
cost effective fee system and greatly simplified program 
administration.
    We can compare this fee structure to the broader market of public 
and private cabin lease programs. A comprehensive market survey by the 
National Forest Homeowners reviewed over 11,000 cabins in programs 
similar in character to the Forest Service Recreation Residence 
Program. This survey examined the market for similar cabin programs and 
further validated the use of public forest lands for recreation 
residence purposes. While user fees ranged widely due to variations in 
permit and lease terms and location considerations, the average user 
fee was less than $1,000. This is less than half the average fee of 
$2,075 under the Cabin Fee Act. We offer this as clear evidence that 
the proposed fee structure provides a fair return to the U.S. 
Government and is based on sound market principles.
    With predictable and affordable fees under the Cabin Fee Act, we 
expect all 14,150 current permits to remain active the Forest Service 
Program will stay within reach of the typical American family. By 
contrast, while CUFFA is expected to provide similar total revenue over 
time, we project that unaffordable high fees and uncertainty will 
result in a decline in the number of permit holders under CUFFA to less 
than 12,000 over the next decade, thus reducing family participation in 
the Program. This same pattern of permit loss is likely to be repeated 
in future appraisal cycles under CUFFA, further eroding the Recreation 
Residence Program.
    A great strength of the Cabin Fee Act is its simplicity. The simple 
and straightforward fee structure provides long-term predictability and 
affordability for the cabin program plus significant administrative 
time and cost savings to the Forest Service. These cost savings allow 
for the redeployment of Forest Service resources away from managing 
appraisals, re-appraisals and permit fee appeals to a more productive 
delivery of programs and public services. The Cabin Fee Act provides a 
true win-win-win outcome for the cabin owner, for the U.S. Forest 
Service and for U.S. taxpayers.
    In summary, the Cabin Fee Act of 2011 ensures the long-term 
viability of the Recreation Residence Program and produces cabin permit 
fees that will:
        1.  be affordable and determined by the true ``cabin market;''.
        2.  be simple, understandable and predictable;
        3.  be revenue neutral by maintaining current revenues and fair 
        return to U.S. taxpayers;
        4.  be implemented more efficiently, saving time and money for 
        the Forest Service;
        5.  recognize the complexities of interdependent cabin 
        ownership interests;
        6.  recognize the locational value of the cabin as sold, fixing 
        fees according to actual benefits received;
        7.  protect the future ability to sell cabins.
Comparison of 2010 and 2011 Cabin Fee Acts
    There are three differences between the 2010 Cabin Fee Act and this 
year's bill.
        (1)  Reduced Tier Fee Structure. The latest cabin appraisals 
        completed by the Forest Service and reported in May, 2011, show 
        that less revenue will be generated under CUFFA than had 
        previously been projected. As a result, it is possible to 
        reduce the tiered fees that would have been set under the 2010 
        Cabin Fee Act and still generate the same amount of revenue 
        that can be projected under CUFFA.
        (2)  Cap on Fee Increases. Under the 2010 Cabin Fee Act it was 
        possible that during the two or three year transition period 
        from CUFFA to the Cabin Fee Act some cabin owners would have 
        had to pay higher fees than CUFFA alone would have required. 
        These increased fees would have been offset by later credits 
        (or debits) against Cabin Fee Act fees once that legislation 
        was finally and fully implemented. The 2011 Cabin Fee Act drops 
        that complex offset procedure and simply provides that such 
        transition fee increases cannot exceed 25% per annum.
        (3)  Including All Cabins on All Forests. The 2010 Cabin Fee 
        Act would have applied only to cabins on those national forests 
        that were taken from the public domain. The 2011 Cabin Fee Act 
        drops that limitation and the legislation now applies to all 
        cabins on all national forests.
    These are positive improvements in the bill that make it more 
equitable for more cabin owners and more acceptable to all cabin 
owners.
Conclusion
    We appreciate the opportunity to present this testimony on behalf 
of the National Forest Homeowners, the C2 Cabin Coalition and nearly 
14,000 cabin owners throughout the nation. We believe the cabin program 
is not only an invaluable source of multi-generational family outdoor 
recreation but that it makes a significant contribution to the health 
of the national forests and the economic vitality of local gateway 
communities. Unfortunately, as a result of the appraisal based fee 
system imposed by CUFFA, many cabin owners are facing a dramatic 
escalation in their fees, threatening this historic program and 
jeopardizing its many contributions.
    The Cabin Fee Act of 2011 will preserve the program as we have 
known it for nearly a century while continuing to provide a fair return 
to the Treasury. It is an equitable approach that properly balances the 
interests and needs of cabin owners with the public interest in 
obtaining a fair return on these public lands.
                                 ______
                                 
    Mr. Broun. Thank you, Mr. Bailey. We will now go to 
questions. I have just been informed that we are going to have 
votes probably in about five minutes. We will try to get 
through a few questions here before we will adjourn temporarily 
to go vote and then we will come back and re-adjourn and finish 
this hearing. The Chair recognizes himself for five minutes.
    Mr. Holtrop, particularly given our current deficit 
situation, does the Administration support the provisions of 
this bill that provide benefits and savings and administrative 
costs for the Recreation Residents Program? It seems from your 
testimony that opposition to the bill is based solely on the 
possibility of cabin owners reaping windfall profits from cabin 
sales instead of simply wanting to be able to continue enjoying 
their cabins.
    Mr. Holtrop. We do support the efficiencies and I think my 
testimony also points out that one of the advantages of this 
piece of legislation is less of a reliance on a continuing 
recurring appraisal process, and that has efficiencies and 
cost-effective benefits for us, and my testimony does recognize 
that and we appreciate that about this piece of legislation.
    I think the opposition is more over some of the more 
technical aspects such as the transfer fee which, from our 
perspective, inappropriately involves us in valuation--in 
dealing with the value of the cabin itself. If there is a 
profit that the owner of the cabin gets from that possibility, 
we don't believe we should be a part of that at all. We are 
solely interested in management of, and correct valuation of, 
the land.
    Mr. Broun. Very good. Mr. Bailey, are objections to the 
current cabin free structure from National Forest Homeowners 
based more on the fact that it will force them to relinquish 
cabins many have enjoyed for generations, or on the fact that 
it might prevent them from turning a profit on their cabin?
    Mr. Bailey. The real issue is that the CUFFA appraisal 
process is based upon land values, when what we are facing is 
the use of the land because we do not own the land. By applying 
the appraisal process, approximately 15 percent of the cabin 
owners this year are going to be above--their fees are going to 
be above market value. Now while a few very wealthy people 
exist in the program, the vast majority of cabin owners are of 
modest means and cannot afford a fee that might exceed $10,000, 
$15,000, or $20,000. Those folks, when they can't afford the 
fee and try to sell, will find that the market also rejects 
those fees as unreasonable, and they will then be forced to 
remove their cabins from the national forest land. So, that is 
the real driving force behind the motivation of the Cabin Fee 
Act.
    Mr. Broun. Thank you, Mr. Bailey. Just for expediency, we 
will go next to Mr. Grijalva for questions.
    Mr. Grijalva. Thank you, Mr. Chairman, and one quick 
question if I may, Mr. Bailey.
    It is true, as has been stated, that the families that own 
these cabins run the gambit from what we can describe as 
wealthy to many others that are not. I am assuming that is 
correct.
    Mr. Bailey. Yes, that is very true. I think that 
characterization----
    Mr. Grijalva. OK, and given that range of income levels are 
you concerned at all that rearranging the tiers for cabin fees 
to avoid large increases for some of the most valuable cabins 
could result in the less wealthy cabin owners having to pay 
more? So, how do we assure, because you are going to want to 
score the same, that the fees generated now, or identify an 
offset, if that is not going to happen? So, how can we assure 
that an equitable distribution is occurring if we are capping 
the top rate?
    Mr. Bailey. Good question. Fair question. Right now some of 
the lowest fees are well under $500. In fact, the lowest fee 
nationally occurs somewhere in Washington and Oregon where it 
is $125 a year, and the Forest Service has indicated to us that 
to administer the program costs at least $500, perhaps $700 per 
year per cabin, and the National Forest Homeowners and the 
Coalition of Cabin Organizations believes that a minimum fee 
needs to at least cover the cost of administration of the 
program, and that is a fair consideration overall. So, at the 
very low end we realize that some of those fees must go up, and 
we believe that is a reasonable consideration.
    Mr. Grijalva. But we understand, I think, as we work 
through this that we can go no less than what is being 
collected now or we need to have an offset or something else 
has to be restructured. You are aware of that part of it.
    Mr. Bailey. Yes.
    Mr. Grijalva. OK. I yield back, Mr. Chairman.
    Mr. Broun. I have a unanimous consent request that Mr. 
Benishek and Mr. Costa participate in the hearing since they 
are not members of the Subcommittee. Hearing none, so ordered.
    Now the Chair recognizes Doc Hastings for questions for 
five minutes.
    Mr. Hastings. Thank you. I just have one question and it 
has been addressed by your question, Mr. Chairman, to Chief 
Holtrop.
    I recall your testimony or the testimony of the Service 
last year was on the revenue neutrality that Mr. Bailey said 
ought to be part of the mix, and I totally agree with that, and 
the trick is how you figure the tiers to get that revenue 
neutrality. Yet your testimony today, and maybe I am missing 
something here because your testimony seemed to be a bit in 
conflict with what the Chairman asked you about the windfall 
profit and somebody making a profit.
    So, just tell me what your main concern is, I guess, on 
your testimony today compared to the testimony from last year 
about the revenue neutrality.
    Mr. Holtrop. Thank you for the question. I think if I could 
I will say maybe two main concerns. One is there are a variety 
of technical aspects of the bill that----
    Mr. Hastings. I understand, set those aside.
    Mr. Holtrop. So setting those aside----
    Mr. Hastings. Set those aside because those are normal 
things that happen and I understand that.
    Mr. Holtrop. So, let us talk about the windfall profit 
aspect of my testimony. If there is a windfall profit that 
occurs because the land has been undervalued, I don't believe I 
am doing my job or we are doing the job that we are held 
responsible for of making sure that we are managing the land 
for the entirety of the American taxpayer and all the people 
who own that land.
    If the windfall profit occurs because there has been an 
increase in value of the cabin itself, that should be the owner 
of the cabin's value, not the American people's because the 
cabin is owned by the cabin owner, the land is owned by the 
American people.
    So, my testimony, and I believe it is consistent with what 
my testimony last year was as well, is largely generated by our 
interest in making sure that we fairly value the land, and that 
we not be a part of the valuation and those aspects of actually 
managing the value of the cabins themselves.
    Mr. Hastings. OK. We need to work our way through this, but 
it is interesting to hear the government talk about the value 
of the land when we hear so many times the public owns the 
land. I mean, clearly the difference in the value is going to 
be if a cabin is sold for a higher level which would move that 
into a different category. So, it just struck me, I guess, when 
I heard your testimony this time and last time that there was a 
difference.
    I think the key thing we need to work out is the revenue 
neutrality. I totally agree with that. Mr. Bailey said that in 
his testimony, because going back to what the Chairman said in 
his opening remarks on all three bills, these are public lands 
that were designed for multiple use, and cabins on public land 
have been around for nearly 100 years for goodness sakes, and 
generations of family like that experience that they have every 
summer and so forth. We need to respect all of that because 
this is multiple-use land.
    So, I want a clarification. I thank you for your answer. I 
am not sure I fully understand it but nevertheless I understand 
that you did raise the issue.
    Mr. Holtrop. And if I may, I also want to express 
appreciation of the program itself, an appreciation of the 
improvements of this legislation compared to last year, and our 
commitment to continue to work with you to reach the solution 
we both want to have happen.
    Mr. Hastings. Thank you. I yield back.
    Mr. Broun. Thank you, Mr. Hastings. Mr. McClintock will be 
recognized next. We have probably got about five more minutes 
in the clock on votes. Do you have questions and want to make 
them quick, or do you want to come back? All right, we will 
recess and resume the hearing. I apologize to the witnesses for 
having to do this, but I am sure you all recognize that is the 
way these votes go, but we will reconvene just five minutes 
after the last vote.
    [Recess.]
    Mr. Broun. Reconvene the Committee. Appreciate you all's 
patience and standing by. I apologize that we had to interrupt 
things, but we will try to get through this as quickly as 
possible.
    Now Mr. McClintock from California is recognized for five 
minutes.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Holtrop, I wanted to begin with a comment that you made 
assuring us that the U.S. Forest Service was strongly 
supportive of hunting and fishing on our national forests. I 
can assure you, sir, from a flood of complaints that have 
reached my office that that is not the practice of the Forest 
Service. In fact, I met with a group of hunters not more than 
four weeks ago who complained about a whole host of actions by 
the Forest Service, all evincing a design to expel them from 
the national forests. Road closures, requirements that forbid 
them from parking more than one car length from a road edge, 
which makes it impossible for them to retrieve game. One group 
had camped in the same spot two weeks running and were told 
that they were now forever banned from that particular forest. 
What you just said is so completely contrary to the reports I 
am hearing from my constituents. I have to conclude, with all 
due respect, that you are either being deliberately 
disingenuous in that statement or you are badly disconnected 
from reality.
    Mr. Holtrop. Well, I don't believe either of those are the 
case, but I would be happy to work with you to look into some 
of the concerns you have expressed.
    Mr. McClintock. I wonder, how many hunting groups from my 
region have you met with?
    Mr. Holtrop. I am not sure how to answer that. I have met 
with many hunting groups that have national constituencies. I 
have met with state fish and game----
    Mr. McClintock. Well, I will tell you the folks in my 
district in the northeastern corner of California are mad. They 
feel that they have been badly abused by the Forest Service and 
they feel that they have been made completely unwelcome in 
their own national forest.
    Mr. Holtrop. Well, I am sorry they are feeling that way, 
and again I would be happy to----
    Mr. McClintock. Well, again, I think they have strong 
reason to feel that way, and when you come here before this 
Committee and blithely assure us that you want to do everything 
you can to open the forests to these activities I have to tell 
you your practice is entirely contrary, and that does not give 
you a great deal of credibility in my eyes when you come before 
this Committee.
    Mr. Holtrop. Again, my statement was based on the fact that 
the National Forest System is open to hunting and fishing.
    Mr. McClintock. Let me move----
    Mr. Holtrop. And I am aware there is access.
    Mr. McClintock. And I am telling you the folks that you are 
referring to are telling me that the national forests are being 
closed to their use. That is what is actually happening.
    Getting to the cabin rates, I would like to know, how many 
cabin sites have been re-leased at the higher rates that are 
being imposed by the Forest Service?
    Mr. Holtrop. If you are referring to the appraisals that we 
are doing under the Cabin User Fee Fairness Act of 2000, the 
majority--well, I am not sure I have the answer. I will be able 
to get you the answer to that. I am aware that there are a lot 
of appraisals yet to be done in the State of California, but 
most of the appraisals----
    Mr. McClintock. What I am trying to get at is how many of 
these cabins, once the rate is increased that are then 
abandoned by the cabin owner because the rate is too high for 
them to pay, are you finding other people to lease those 
cabins? How many are going unleased because I am hearing quite 
a few?
    Mr. Holtrop. I don't have a figure along that line.
    Mr. McClintock. Mr. Bailey, do you have any insight on 
this?
    Mr. Bailey. The permit process and the determination of 
fees functions separately, sir, and the permit was issued for 
all cabins across the country about three-four years ago, and 
it was a long process.
    Mr. McClintock. What I am trying to find is, are these 
appraisals in an actual market rate or are these appraisals 
deliberately well above a market rate with the intention of 
simply forcing the public off the public lands?
    Mr. Bailey. Well, I certainly don't understand the 
intention, but there are many, many examples across the country 
where the rates that the cabin owners are facing are well above 
the market to the point where they not only can't afford it, 
but when the fee is fully instituted and we are in the middle 
of that process----
    Mr. McClintock. Those cabins will not be re-leased out.
    Mr. Bailey. That is correct.
    Mr. McClintock. So not only are we not getting the higher 
rate we are getting no rate, we are losing the rate that had 
been paid because we deliberately put it above the market rate. 
There is only one purpose for that, and it is not to raise 
revenues. It is to force people off the public lands.
    Mr. Bailey. That is inherent in this appraisal process that 
there are fees that are going to do that.
    Mr. McClintock. I will tell you, in 16 months or so I 
believe there is going to be a new administration, and there is 
going to have to be a top-to-bottom housecleaning at the Forest 
Service and a top to bottom re-alignment of the attitudes in 
that agency which has turned so completely radically away from 
Gifford Pinchot's vision of a Forest Service that welcomed the 
public to the public's lands.
    Mr. Broun. Thank you, Mr. McClintock. Dr. Benishek, you are 
recognized for five minutes for questions.
    Mr. Benishek. Thank you, Mr. Chairman, for holding today's 
hearing and for your leadership on this Committee. I appreciate 
the opportunity to be here today.
    I am speaking more about the Recreational Fishing and 
Hunting Heritage Opportunity Act that I introduced. It is very 
personal and important to me. In northern Michigan, hunting and 
fishing is more than just a sport or a hobby, it is a way of 
life. It is something I share with my children and I hope to 
share with my grandchildren. I introduced this bill so that 
they and future sportsmen and women are guaranteed access to 
Federal lands, and I appreciate you all participating today.
    I tend to agree actually with Mr. McClintock about the 
effect. You know, you say that you welcome hunting and fishing 
on the Federal forests. I live in the Ottawa National Forest. I 
have a hunting camp there, and the actual practices of the 
Forest Service don't seem to jive with what you are saying, and 
I am hoping that this piece of legislation will at least 
perhaps change the on-the-ground attitude of the forest 
management because I know the access to many of the roads are 
blocked off by berms, and you can't drive four-wheelers on 
certain roads anymore, and it just seems that there is an 
attitude of not being able to use the Federal forests at all, 
and we have hunting, fishing.
    We would like to be able to cut the Federal forests. I 
mean, that is another issue facing us that is really 
problematic; getting efficient use of the resources in our 
Federal forests have been increasingly difficult and bad for 
employment in my district because, frankly, it takes eight to 
ten years to get a cut done apparently. Every time the Forest 
Service sells land they lose money, or sells timber they lose 
money. That doesn't make any sense to me because of the 
prolonged process.
    Are there any things on your end that you can do to help me 
believe that you have hunting, fishing, and multi-use of our 
forests on your agenda?
    Mr. Holtrop. Well, I think there are a lot of reasons for 
you to be able to believe that. First of all, if the concern 
isn't a land allocation issue, do we allow hunting on the 
National Forest System? The answer is yes, we allow hunting on 
the National Forest System. The exceptions are minimal such as 
in recreational areas like campgrounds or----
    Mr. Benishek. Of course, but I mean allowing access to the 
forest is becoming more and more of a problem.
    Mr. Holtrop. So, it is a concern is if it is an access 
issue or how to provide access, there are a great number of 
issues that need to continue to be resolved on that.
    Mr. Benishek. But it is my opinion that the hunting and 
fishing activities take a lesser precedent, I mean a lesser 
standing in the multiple-use mission of the forest.
    Mr. Holtrop. I don't feel that way, but I do understand 
that there are members of the hunting and fishing community who 
have expressed concerns about that, but I believe what we are 
continuing to strive for is a correct balance of the management 
of road and trail systems in a multitude of uses on the 
National Forest System lands, but hunting and fishing is a 
proud part of the heritage of the Forest Service and continues 
to be, and we will continue to encourage that activity, those 
activities on the National Forest System lands.
    Mr. Benishek. Well, I am just hoping that this piece of 
legislation will help codify then into law because to me it 
doesn't seem like it is adequately protected under the 
legislation that exists at this time. You know, I understand 
the difficulty working in a bureaucracy like the Federal 
Government agencies, but I am very frustrated by my interaction 
with the Forest Service on a personal level, and I just want 
you to understand my position here.
    Thank you. I yield back the remainder of my time.
    Mr. Broun. Thank you, Doctor. I know Mr. Costa had some 
questions but seeing that he is not here yet what we will do is 
we will just move on. I thank this panel. We will move to the 
next one.
    Mr. Bailey, I see that Mr. Jeff Anderson, the President of 
the National Forest Homeowners Association is here today. Thank 
you, Mr. Anderson, for all your hard work on this issue, and 
your hard work on behalf of cabin owners, so thank you very 
much, appreciate your being here.
    Mr. Holtrop, if you would continue to stay, and Mr. Bailey, 
you can be excused, and we will ask the next panel to take 
their seats, please.
    As the next panel is taking their seats, Dr. Benishek is 
the sponsor of Recreational Fishing and Hunting Heritage and 
Opportunities Act, and I understand he has a statement to make 
on that, and I have a statement also on my bill. I think my 
bill is the most important bill that Congress is going to face 
this year because it is my bill, but anyway.
    Mr. Benishek. Were you recognizing me now, Mr. Broun? Is 
that what you said?
    Mr. Broun. Well, let us get them seated. Dr. Benishek, I 
will recognize you now. You are recognized for five minutes.
    Mr. Benishek. I just wanted to say I would rather have you 
speak because I don't have much more to add than my previous 
statement here with the question, and you know, if you would 
rather just go on with your statement or the witnesses, that 
would be fine with me.
    Mr. Broun. All right, I will recognize myself for five 
minutes then.
    Mr. Broun. I would like to thank Chairman Hastings and 
Chairman Bishop for allowing this hearing today on H.R. 1444, a 
bill that I introduced that would require that hunting 
activities be considered as a land use in all management plans 
for Federal land, to the extent that it is not clearly 
incompatible with the purposes for which the Federal land is 
managed.
    I am an avid hunter and an outdoorsman. In fact, I started 
my political activism as the government affairs vice president 
for Safari Club International, and I am a life member number 17 
for SCI. I began coming to Washington as a volunteer advocate 
for Safari Club. I am also a member, life member of the 
National Rifle Association, Gunners of America, National Wild 
Turkey Federation, Rocky Mountain Elk Foundation, Wild Sheep 
Foundation, et cetera, et cetera, so I am a life member of 
multiple conservation and hunting organizations. In fact, if 
someone comes to my office they will see a full-bodied mounted 
African lion as well as a Kodiak brown bear. They are just a 
few of my trophies that are in my office and that I invite 
visitors to come and see when they come to Washington and come 
to my office.
    Hunting is already permitted on most of BLM and Fish and 
Wildlife Service lands. It has provided a positive force in 
habitat conservation, support for wildlife restoration and 
contributed billions of dollars and benefits to state and 
regional economies throughout the nation. I look forward to 
finding ways to expand hunting on our vast Federal lands and I 
believe that H.R. 1444 can play an important role in achieving 
that goal.
    Now I would like to hear from the panel. I think Mr. 
Holtrop already commented, and let me see, Mr. Costa has just 
joined us. Welcome back. If you would like to ask a question on 
the cabin bill, we would be glad to go to that or you can ask 
as we come to questions on this panel. It is your preference.
    Mr. Costa. With the pleasure of the Chairman, I would just 
like to make a brief statement as related to the cabin issue. 
These other two issues are not issues that I am directly 
involved with.
    Mr. Broun. Without objection.

STATEMENT OF THE HONORABLE JIM COSTA, A REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Mr. Costa. Thank you, Mr. Chairman, and the Ranking Member. 
I have been involved with Congressman Hastings on the cabin 
fees issue now for almost four years, and I, like a number of 
my other Californians, represent a number of the 14,000-plus 
cabin owners that are primarily in the West that are impacted 
by these fees. I appreciate Congressman Hastings' efforts to 
reach an agreement and a resolution to this issue. There are 
some questions, I think, that were raised earlier in the 
hearing and I thank the Chair for giving the opportunity to 
shed some additional light on that as we try to work through 
this. Obviously this has been a long festering issue.
    I was somewhat perplexed by the gentleman from the Forest 
Service who talked about the value of the land when the land is 
owned by the United States, the Forest Service, because I have 
recreational areas that I have spent many years with in which 
you can have a very basic cabin and you can have a very nice 
cabin, but the value of the cabin doesn't, I think, impact the 
land per se because it is a lease and that lease, it is no 
longer the 99-year lease that used to exist in the past.
    So, I will work with you, Mr. Chairman, and Congressman 
Hastings, as we work to a resolution because the 14,000-plus 
cabin owners throughout the West that have been good stewards, 
good stewards of these areas in which, as you know, in many 
cases they have been passed from generation to generation, are 
what is wonderful about having the opportunity to protect and 
be good stewards of our forests and to allow families to enjoy 
those parts of the lands that are all part of our heritage.
    So, I thank you for your efforts. I thank you for allowing 
me to make a comment. The cabin owners that are represented 
here today have been working on this issue long and hard for 
awhile and hopefully this year we will bring a resolution to 
this matter. Thank you.
    Mr. Broun. Thank you, Mr. Costa. In fact, I agree with you. 
Hopefully we will bring a very positive resolution to this 
issue.
    Joining us on the panel is Mr. Bob Ratcliffe, the Deputy 
Assistant Director of BLM; Former Assistant Secretary William 
Horn representing the U.S. Sportsmen's Alliance; Melissa 
Simpson of Safari Club International; and Susan Recce with the 
National Rifle Association. Like all our witnesses your written 
testimony will appear in full in the hearing record so I ask 
that you keep your oral testimony to five minutes. When you 
begin to speak a green light will show up there in front of 
you. After four minutes the yellow light will come on, and you 
should begin to conclude your statement. At five minutes the 
red light appears, and if you would please very quickly 
conclude your statement.
    Mr. Holtrop, you have already made your statement 
previously. Do want to make any additional comments at this 
time? Very good. Mr. Ratcliffe, your statement, please. You are 
recognized for five minutes.

    STATEMENT OF BOB RATCLIFFE, DEPUTY ASSISTANT DIRECTOR, 
 RENEWABLE RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ratcliffe. Thank you. Thank you for the opportunity to 
testify on behalf of the Department of the Interior on H.R. 
2834, and H.R. 1444. I am Bob Ratcliffe, Bureau of Land 
Management's Deputy Assistant Director for Renewable Resources 
and Planning.
    It is a particular pleasure to be here today to discuss 
public land outdoor recreational issues. As a former outfitter, 
guide and public land recreation manager in some of the West's 
most spectacular landscapes, outdoor recreation has been a 
lifetime passion of mine not only in my career but also in my 
personal and family life. In addition, I have had the 
opportunity to work extensively with the Shooting Sports 
Roundtable over the last decade on proactive efforts to promote 
and facilitate hunting and shooting on Federal lands.
    I am here to provide the departmental views on these bills 
and to answer questions related to the BLM. With me are Bert 
Frost, Associate Director of Natural Resource Stewardship and 
Science at the National Park Service, and Jeff Rupert, Acting 
Deputy Assistant Director for the National Wildlife Refuge 
System at the Fish and Wildlife Service who will answer 
questions specific to national parks or Fish and Wildlife 
Service lands.
    For generations, American hunters and anglers have been at 
the forefront of conservation of our nation's wildlife 
resources. Hunting, fishing, shooting are often life-long 
recreational activities. They build an appreciation and 
understanding of our lands, water, and wildlife. The Department 
strongly supports promoting these opportunities. Activities of 
several Department agencies strongly promote recreational 
fishing, hunting, and shooting opportunities on Federal lands.
    The Fish and Wildlife Service actively supports hunting and 
fishing program on the majority of its 553 units. Hunting and 
fishing are given priority as two of the big six wildlife-
dependent activities. When appropriate and compatible, hunting 
and fishing are given priority as recreational uses on refuges.
    The National Park Service allows hunting in all of its 
regions except for the National Capital Region. Roughly 70 
percent of Service lands are available for hunting. Fishing is 
allowed in nearly all Park Service units either by Federal 
statute or by special regulation. Outstanding opportunities for 
recreational hunting and fishing are also found on the 245 
million acres of public lands managed by the BLM, including 
gold metal trout fisheries in Colorado, and trophy prong horn 
mule deer and Rocky Mountain elk in Wyoming to name just a few.
    Across the West the BLM's remote lands are highly regarded 
for the quality of hunting experiences they offer and we 
estimate that over 95 percent of BLM lands are open to hunting. 
The vast majority of BLM lands are also open to recreational 
shooting. In Arizona, for example, less than two percent of 
BLM-managed lands are closed to recreational shooting. In 
Nevada, it is less than one-half of one percent. Sometimes it 
is necessary to close an area to target shooting. For example, 
in Southern California with an urban population of more than 25 
million people the BLM has prohibited recreational shooting in 
a handful of heavily used off-highway vehicle areas. It is just 
not good sense to try to manage thousands of vehicles racing 
over dunes and target shooting in the same place at the same 
time.
    The Department is concerned that provisions of these bills 
seem to duplicate or overlap with existing management 
authorities and policies. Much of the Department's public lands 
are already open to fishing and hunting and shooting unless 
there is a conflict with public safety or otherwise prohibited 
by local jurisdictions or other state or Federal laws and 
regulations. Fishing and hunting and shooting are already 
addressed in the agency management plans and our priorities 
where the public has made them a priority through the National 
Environmental Policy Act's public involvement process.
    H.R. 1444 would apply a one-size-fits-all standard 
requiring hunting to be uniquely considered in all land 
management planning regardless of local priorities. The 
Department strongly opposes the provisions of H.R. 2834 which 
undermine the Wilderness Act. For example, the bill could be 
interpreted to allow motorized activities or developments in 
wilderness, which is clearly contrary to Congressional intent, 
judicial precedent, and agency management of wilderness for 
over 40 years.
    The Department also strongly opposes provisions in H.R. 
2834 which exclude management decisions from public review and 
comment opportunities of NEPA and the Federal Land Management 
Policy Act. This bill would disconnect the public from their 
right to be involved in these Federal agency decisions.
    While the Department has concerns with these bills, we look 
forward to continuing our work with Congress and stakeholders 
in promoting and facilitating recreational fishing, hunting, 
and shooting opportunities on the Federal lands. Thank you for 
this opportunity to testify and I will be available for any 
questions.
    [The prepared statement of Mr. Ratcliffe follows:]

   Statement of Bob Ratcliffe, Deputy Assistant Director, Renewable 
 Resources and Planning, Bureau of Land Management, U.S. Department of 
                the Interior, on H.R. 2834 and H.R. 1444

Introduction
    Thank you for the opportunity to discuss the Department of the 
Interior's (Department) views on two bills pertaining to recreational 
fishing, hunting and shooting on federal public lands: H.R. 2834, the 
Recreational Fishing and Hunting Heritage and Opportunities Act, and 
H.R. 1444, which concerns hunting and land management planning.
    As H.R. 2834 was only formally introduced on September 2, 2011, and 
the text of the introduced bill only became available yesterday, 
September 8th, 2011, one day before this hearing, the Department has 
not had sufficient time to conduct an in-depth analysis of the 
legislation as introduced. Our testimony today is based upon a 
discussion draft of the bill. We would like to reserve the right to 
submit additional comments about the introduced bill.
    The Department strongly supports the goal of promoting recreational 
fishing, hunting and shooting opportunities. These important 
recreational opportunities abound on public lands and are valued by 
millions of Americans who hunt and fish on DOI-administered parks, 
refuges and public lands. The Department also recognizes the economic 
and community benefits associated with hunting and fishing and fully 
considers these opportunities when developing our land planning and 
management.
    However, the Department strongly opposes provisions of the bills 
which exclude management decisions from the National Environmental 
Policy Act (NEPA)--the cornerstone law guiding environmental protection 
and public involvement in federal actions--and provisions which 
undermine the Wilderness Act of 1964. The Department also has concerns 
with the provisions in the bills which seem to duplicate, overlap, or 
potentially interfere with existing management authorities and 
policies.
    The Department would welcome the opportunity to work with the 
Committee to promote highly important and traditional outdoor 
recreation activities--including hunting, fishing and recreational 
shooting where authorized- on lands administered by Department 
agencies.
Background
    American hunters and anglers, concerned about the future of 
wildlife and the outdoor tradition, have made invaluable contributions 
to the conservation of the nation's wildlife resources since the late 
19th century. This tradition continues today, with hunters and anglers 
remaining at the forefront of American conservation. Hunting and 
fishing, and shooting are often life-long recreational activities and 
they build appreciation and promote understanding of the lands, water 
and its wildlife.
    The America's Great Outdoors Initiative (AGO), established by 
President Obama in 2010, supports these same goals by reconnecting 
Americans to our nation's land, water and wildlife. During the recent 
summer listening sessions on AGO, support for hunting and fishing 
access and opportunities on public lands and waters was a common theme. 
The goals of the Wildlife and Hunting Heritage Conservation Council 
(WHHCC), an official advisory group established under the Federal 
Advisory Committee Act (FACA), are complementary: promote and preserve 
America's hunting heritage for future generations by advising the 
Federal government on policies that benefit hunting, wildlife and 
encourage partnerships. Activities of Department land management 
agencies reflect these goals.
Fish and Wildlife Service
    The U.S. Fish and Wildlife Service (FWS) administers the National 
Wildlife Refuge System (Refuge System), which is comprised of 553 
refuges and 38 Wetland Management Districts (WMDs) and more than 150 
million acres of land and water across the country. Hunting programs 
are actively supported in the majority of these refuges, and the 
Service also strongly supports hunting and fishing activities through 
many of its other programs and expenditures. In accordance with the 
National Wildlife Refuge Administration Act, as amended by the National 
Wildlife Refuge Improvement Act of 1997, hunting and fishing are given 
priority as two of the ``big six'' wildlife-dependent recreational 
activities in the statute. Each individual National Wildlife Refuge is 
established with a primary purpose or purposes related to conservation, 
management, and in some cases restoration of fish, wildlife, and plant 
resources and their habitats. The management of each refuge gives 
priority consideration to appropriate recreational uses of the refuge 
that are deemed compatible with the primary conservation purposes of 
the refuge, and the overall purpose of the Refuge System. Given hunters 
and anglers special relationship with our National Wildlife Refuges, 
hunting and fishing are already given priority among uses. When 
appropriate and compatible, hunting and fishing opportunities are 
allowed and often facilitated on refuge lands. Currently, approximately 
375 of the 591 refuges and WMDs of the Refuge System have hunting 
programs and approximately 355 have fishing programs. Recreational 
shooting is not deemed a wildlife-dependent use of a refuge, and is 
therefore not a priority use within the Refuge System.
National Park Service
    The National Park Service (NPS) administers the National Park 
System, which is comprised of 395 units on more than 84 million acres 
across the country. The NPS Organic Act of 1916 established the mission 
of the National Park Service to conserve the scenery and the natural 
and historic objects and the wild life therein and to provide for the 
enjoyment of the same in such manner and by such means as will leave 
them unimpaired for the enjoyment of future generations. Of the 84 
million acres of NPS lands, 29 million are in the lower 48 states and 
55 million are in Alaska. Hunting is allowed in all regions of the 
National Park Service except the National Capital Region. Roughly 70 
percent of NPS lands are already available for hunting (8.3 million in 
the lower 48 states, which is 29% of NPS lands in the lower 48 states 
and 50.3 million in Alaska, which is 91% of NPS lands in Alaska).
    NPS allows recreational fishing when it is authorized or not 
specifically prohibited by federal law, provided that it has been 
determined to be an appropriate use per the 2006 National Park Service 
Management Policies. Hunting, trapping or any other method of 
harvesting wildlife by the public is allowed where it is specifically 
mandated by federal law or where it has been authorized on a 
discretionary basis under federal law and special regulations. Hunting 
is authorized in 62 of the 395 national park units, while fishing is 
allowed in nearly all applicable NPS units, in accordance with non-
conflicting state regulations and federal restrictions. Trapping is 
allowed in 16 units. Units of the National Park System where there is 
no hunting or trapping are some of the only federally managed areas in 
the U.S. that may provide a system relatively unaltered by humans that, 
because of the lack of alteration, are useful as control areas for 
scientific studies. These areas also provide opportunities for non-
consumptive recreation by members of the public and significant 
opportunities to see wildlife in their native habitats.
Bureau of Land Management
    The Bureau of Land Management (BLM) is responsible for the 
protection of resources and multiple-use management of our Nation's 245 
million acres of public land. The BLM manages the public land for a 
variety of uses, such as energy development, livestock grazing, 
recreation and timber harvesting, while protecting an array of natural, 
cultural, and historical resources.
    The BLM's recreation program is one of the key elements of our 
multiple-use mission. In the west, these lands constitute America's 
backyard, providing close-to-home outdoor recreation venues. In 
addition, they afford extensive backcountry recreation opportunities. 
The expansive landscapes and world-class recreation opportunities 
offered by the BLM's public lands are among America's greatest 
treasures. BLM has strived to maintain high quality dispersed 
recreation opportunities where visitors and recreationists are free to 
explore and discover undeveloped places in the outdoors. There are 
countless outstanding examples of fishing and hunting opportunities on 
the public lands. For example, the Gunnison River Gorge National 
Conservation Area is designated by the State of Colorado as a Gold 
Medal Trout Fishery and supports excellent rainbow, brown, and 
cutthroat trout populations; Wyoming BLM lands provide habitat for 
abundant herds of trophy pronghorn and Rocky Mountain elk; and the BLM-
managed Steens Mountain area in Oregon supports fantastic big game 
hunting opportunities for trophy mule deer. In many places across the 
west, the BLM's remote lands are highly regarded for the quality of the 
hunting experiences they offer.
    Hunting activities and regulations on public lands are generally 
managed by State fish and wildlife agencies. The BLM estimates that 
over 95 percent of BLM-managed public lands are open to hunting. The 
BLM restricts hunting and shooting in administrative sites, campgrounds 
and other developed facilities and in a few other areas with intensive 
energy, industrial or mineral operations or nearby residential or 
community development. When lands are closed to hunting and shooting, 
those restrictions are typically implemented to comply with state and 
local public safety laws and ordinances or private property 
considerations. For example, in Arizona where the BLM manages more than 
12 million acres of public lands, less than 1.3% of BLM public lands 
have recreational target shooting restrictions and only a few 
administrative sites and developed areas are closed to hunting.
    Any consideration of closures or restrictions is completed through 
the management planning process that includes extensive public input. 
This is an open process through which BLM's proposals for managing 
particular resources are made known to the public before action is 
taken. The BLM responds to substantive comments received from the 
public and stakeholders, on the proposal, during the NEPA public review 
process.
H.R. 2834
    H.R. 2834 would require federal land managers to facilitate access 
to public lands and waters for fishing, hunting and shooting except for 
reasons of national security, public safety or resource conservation. 
Under the bill, the effects of a Federal action on opportunities to 
engage in recreational fishing, hunting and shooting must be analyzed 
in all planning documents. The bill also prevents any action taken 
under this legislation to be considered a ``major Federal action'' 
which would preclude any analysis and the public review process under 
NEPA. Provisions of the bill also substantially affect the Wilderness 
Act of 1964. The bill allows lands managed by the BLM and the Forest 
Service to be leased for shooting ranges and limits liability. Finally, 
the bill would require public notice, coordination and a report to 
Congress for all closures or fishing, hunting and shooting restrictions 
on tracts of land greater than 640 contiguous acres.
    The Department has serious concerns with several of the provisions 
of H.R. 2834.
    The bill's provisions (Sections 4a and 4b) which aim to provide 
greater access to Federal public lands for recreational hunting, 
fishing and shooting appear to be duplicative of existing authorities 
and policies, and are therefore unnecessary. For example, the BLM 
regards public lands as open to fishing, hunting and shooting because 
these activities are currently allowed without restriction unless it is 
demonstrated that the activity could result in unacceptable resource 
damage or create a public health and safety hazard or is incompatible 
with the purposes for which certain special areas have been designated. 
Any determination to close public lands to certain activities is made 
following extensive public involvement and notification through 
management planning NEPA processes and public notices. Further, through 
BLM, land use planners are not only required to notify the general 
public but are specifically required to contact over 40 hunting and 
fishing interest non-government organizations, as specified in the 
Federal Land Hunting, Fishing and Shooting Sports Roundtable Memorandum 
of Understanding (MOU), expressly to help ensure that these activities 
and issues are fully considered in resource management plan 
development.
    The bill contains provisions (Section (4) (c)) which restrict 
consideration of effects of certain management actions and activities 
on adjacent or nearby non-Federal lands. This is inconsistent with both 
the BLM's planning policy, which is based on the Federal Land Policy 
and Management Act (FLPMA), and NEPA; and with cumulative impacts 
analyses the NPS uses in its planning efforts. Furthermore, section 
4(c)(1)(B) exempts all actions taken under the legislation, as well as 
all National Wildlife Refuge System activities from the National 
Environmental Policy Act (NEPA) regulations and the attendant 
environmental review processes. Such an exemption would impair the 
ability to accurately assess the likely impacts of decisions to manage 
federal lands under the Department's jurisdiction. Properly developed 
NEPA reviews are a critical tool for public involvement and they 
improve decision-making by allowing the officials to evaluate ways to 
resolve resource use conflicts and address issues that the public 
raises. These restrictions will limit the agencies' ability to make 
well-informed land management decisions. The Department strongly 
opposes these provisions.
    Section 4(c)(1)(C) states that recreational fishing, hunting, or 
shooting that occurs on adjacent or nearby public or private lands 
shall not be considered in determining which Federal public lands shall 
be open for these activities. However, it is prudent and important to 
consider the cumulative effects of proposed actions on public lands 
during the decision making process. In the NEPA planning process, there 
could be impact topics that require consideration of nearby or adjacent 
lands in the analysis.
    Section 4(d) of the bill authorizes the BLM to lease its lands for 
shooting ranges and to designate specific lands for recreational 
shooting activities. This section of the bill is unnecessary because 
the BLM has in the past and currently can transfer title of lands to 
other public entities including state and counties, for their 
management as public shooting ranges under the Recreation and Public 
Purposes Lease Act. The BLM can also implement non-reversionary leases 
with other entities for public use as shooting ranges. The bill also 
provides limitations on liability related to activities at the shooting 
ranges. The Department of the Interior defers to the Department of 
Justice on the bill's limitation on liability related to activities 
occurring at shooting ranges.
    The Department strongly opposes and recommends deletion of Section 
4 (e) of the bill, which appears to have the unintended consequences of 
undermining the principles of the Wilderness Act of 1964. Specifically, 
the bill could be interpreted to allow motorized and commercial 
activities in wilderness, which are clearly contrary to Congressional 
intent, 45 years of wilderness management, and judicial precedent.
H.R. 1444
    H.R. 1444 requires that hunting activities (defined as hunting, 
trapping, netting and fishing) be a land use in all management plans 
for lands administered by Department agencies. The bill provides that 
hunting shall be allowed as a land use unless clearly not compatible 
with the purposes for which lands are managed, with any closures or 
restrictions clearly spelled out in management plans. It is unclear to 
which management plans the bill is referring, or if it requires 
agencies to develop specific hunting management plans.
    Applying a one-size-fits-all approach for the automatic allowance 
of hunting on public lands precludes full public engagement and 
involvement in the land use planning process, which is critical when 
determining which significant issues will be addressed in the land 
management plan.
    The bill's provisions duplicate, and in some cases contradict, 
existing authorities. The BLM, for example, already allows unrestricted 
hunting on BLM-managed lands unless it has been determined to be 
specifically incompatible with the purposes for which the lands are 
managed. Hunting and fishing programs are commonplace in the Refuge 
System administered by the FWS, and occur in most, if not all, refuges 
where such programs are found to be compatible with the conservation 
purpose of each refuge and the overall Refuge System. Similarly, 
hunting and fishing are currently permitted in many NPS units with an 
appropriate land base. However, the National Park System includes units 
created for a variety of purposes in a variety of settings. Hunting may 
not only contradict existing NPS enabling legislation and other 
authorities, it also may be incompatible with state or local 
ordinances.
    For the FWS and NPS, this bill reverses the long held standard that 
an activity needs to be found compatible before it can be allowed. It 
places the burden on land managing agencies to show why hunting and 
fishing activities should not take place unless it is clearly 
incompatible with the purposes for which the federal land is managed or 
for which it was established. Agencies would need to develop this 
analysis for all public lands.
    The bill also considers fees collected by any entity, over and 
above the costs associated with managing lands administered by 
Department agencies for hunting, a restriction on hunting. These fee 
provisions are unclear and require clarification. For example, while 
the BLM charges fees to commercial recreation providers, including 
hunting outfitters and guides, the agency does not charge fees to 
individuals wishing to fish, hunt or shoot on BLM-managed public lands. 
Although fees collected at many FWS-administered refuges help to defray 
costs or improve public facilities for hunting, they do not fully cover 
the costs. Fees are kept low to ensure more hunters have access. The 
fee provisions of the bill are unclear and have the potential to 
introduce confusion into fee programs related to hunting and fishing in 
the Refuge System, including the Federal Duck Stamp program.
Conclusion
    The Department looks forward to continuing its work with the 
Congress and stakeholders in promoting and facilitating recreational 
fishing, hunting and shooting opportunities on lands administered by 
Department agencies. Thank you for the opportunity to present testimony 
on these two bills. I would be glad to answer any questions you may 
have.
                                 ______
                                 
    Mr. Broun. Thank you, Mr. Ratcliffe. Mr. Horn, you have 
long experience both as a public land manager and as a citizen 
conservationist. I look forward to hearing what you have to say 
today, sir.
    Mr. Horn. Thank you.
    Mr. Broun. You are recognized for five minutes.

 STATEMENT OF WILLIAM HORN, DIRECTOR OF FEDERAL AFFAIRS, U.S. 
                      SPORTSMEN'S ALLIANCE

    Mr. Horn. Thank you, Mr. Chairman.
    For the record, my name is Bill Horn, representing the U.S. 
Sportsmen's Alliance, and thanks to the Subcommittee for the 
opportunity to appear today in support of H.R. 2834. We would 
like to start by commending Representative Benishek and the 
bipartisan cosponsors of the bill which establishes clearly 
that fishing, hunting, and recreational shooting are important 
activities that have a key place on national forest and BLM 
public lands. Expressed legislative recognition that these 
activities are legitimate and valuable would help fend off the 
growing attacks from animal rights radicals and others who 
appear committed to running anglers and hunters off our public 
lands.
    Now, unfortunately, existing law lacks this needed 
expressed recognition. Neither the 1960 Multiple-Use Sustained 
Yield Act, which governs forests, nor the 1976 Federal Land 
Policy Management Act governing BLM lands makes specific 
references to angling and hunting or continuation of those 
activities.
    We are convinced that continued failure to recognize the 
importance of these activities on forest and BLM lands in law 
and provide for the continuation of such uses sets the stage 
for activist judges to rule in favor of some animal rights 
plaintiff somewhere and ban or restrict angling and hunting on 
these lands. I think that would be an untenable situation.
    What we are struck by is that this situation we face today 
is very similar to that that this Committee dealt with in 1996 
and 1997 when it produced the 1997 Refuge Improvement Act that 
passed the house by a 403 to one vote before signed into law by 
President Clinton. Earlier, Wildlife Refuge Administration 
statutes had not expressly provided for hunting or fishing as 
the notion that these activities could be barred on the refuge 
system was simply incomprehensible. No one thought that they 
needed to make those types of references when those initial 
statutes were passed in the fifties and sixties. By the mid-
1990s, however, there had been a string of animal rights 
lawsuits to bar hunting on refuge lands, and Congress saw the 
need to codify that hunting and fishing were legitimate 
activities on refuges and that hunting and fishing merited 
statutory designation as priority public uses on public lands. 
That bill was passed to almost overwhelming acclaim, signed by 
the President in the fall of 1997, and shortly thereafter 
virtually all of the anti-hunting refuge lawsuits stopped dead 
in their tracks.
    We think comparable treatment is necessary for BLM and 
Forest Service lands. There has been nothing but good come out 
of the 1997 Refuge Act and we think something similar needs to 
be done for 440 million acres of other public lands.
    Now, USSA has been urging Congress to pass this 
legislation, comparable legislation since 1998. Part of it is 
that we have seen these problems grow and intervening years 
have taught us that there are problems, that we have seen 
decisions like the Sixth Circuit's Meister case involving the 
Huron-Manistee Forest exposed how quickly hunting can be 
restricted or barred on forest units. Hostile animal rights 
groups continues to grow and uses its ever-swelling war chest 
to harass hunters and anglers, and an increasingly urban nation 
disconnected from America's outdoor heritage either doesn't 
care or joins in that hostility. Continued silence in the law 
regarding the legitimacy and contributory roles of fishing and 
hunting on our public lands will ultimately cause us to lose 
those rights and activities on these lands.
    Now, other specific provisions protect recent fishing and 
hunting by reversing recent Ninth Circuit Court of Appeals 
rulings that upset 40 years of legal status quo involving 
statutes like the Wilderness Act. For many years the agencies 
interpreted the provisions of that Act to allow a variety of 
activities when deemed to be necessary. The activists disagree 
with some of those necessity determinations involving wildlife 
conservation and recreational access projects, and the Ninth 
Circuit agreed and has made satisfying the necessity test much, 
much more difficult for recreation fish and wildlife 
management.
    We think that it is only a matter of time before again some 
plaintiffs run off to court, take that new elevated necessity 
standard and use that to erect new barriers and new obstacles 
to hunting and fishing on wilderness. So in that sense we would 
urge Congress to pass 2834, which includes corrective 
provisions that restores the legal status quo regarding the 
Wilderness Act that existed from 1964 through 2004.
    Thank you again for the opportunity to appear on behalf of 
the Recreational Fishing and Hunting Heritage and Opportunities 
Act. We look forward to working with this Committee to assure 
prompt favorable action on this very important and necessary 
bill. Thank you.
    [The prepared statement of Mr. Horn follows:]

Statement of William P. Horn, U.S. Sportsmen's Alliance, on H.R. 2834--
    Recreational Fishing and Hunting Heritage and Opportunities Act

    Mr. Chairman: My name is William P. Horn representing the U.S. 
Sportsmen's Alliance (USSA). Thank you for the opportunity to appear 
today and support enactment of H.R. 2834. USSA was organized in 1977 
for the purposes of protecting the American heritage to hunt, fish, and 
trap and supporting wildlife conservation and professional wildlife 
management. It pursues these objectives at the federal, state, and 
local level on behalf of its over 1.5 million members and affiliates.
    We commend the bipartisan sponsors of the Recreational Fishing and 
Hunting Heritage and Opportunities Act and strongly recommend its 
prompt enactment by the Congress. The bill clearly establishes that 
fishing, hunting, and recreational shooting are important traditional 
activities that have a key place on our National Forests, administered 
by the U.S. Forest Service, and public lands administered by the Bureau 
of Land Management (BLM). Express legislative recognition that these 
activities are legitimate and valuable will help fend off the growing 
attacks from animal rights radicals and others committed to running 
anglers and hunters off our public lands. Clear statutory support will 
also signal, and direct, the land management agencies to exercise their 
discretion in a manner that facilitates these traditional activities.
    Existing law lacks this recognition and clarity. For example, only 
part of the 1960 Multiple-Use Sustained Yield Act, which governs 
Forests, references ``outdoor recreation'' and ``wildlife and fish 
purposes.'' That general language has been insufficient to protect 
hunting and fishing: it has not stopped the Forest Service from 
proposing planning regulations that give fishing and hunting (and 
conservation) short shrift nor has it prevented federal courts from 
ordering the same agency to consider banning hunting because the sound 
of gunfire might upset the tender sensibilities of a bird watcher. 
Similarly, the 1976 Federal Land Policy and Management Act (FLPMA) 
(which is the ``organic act'' for BLM public lands) makes no specific 
references to fishing or hunting. We are persuaded that continued 
failure to expressly recognize the importance of these activities on 
Forest and BLM lands, and provide for continuation of such uses, sets 
the stage for an activist judge in San Francisco, New York City, or 
D.C. to rule in favor of some animal rights plaintiff and ban angling 
or hunting on these public lands.
    This situation is similar to the circumstances that produced the 
1997 Refuge Improvement Act (which passed the House with only one 
dissenting vote and was signed into law by President Clinton). Earlier 
refuge administration statutes passed in the 1950's and 60's had not 
specifically provided for hunting or fishing; the authors of those 
bills--hunters all--saw no need as there was no animal rights movement 
and no clamor then to close hunting on Teddy Roosevelt's wildlife 
system. The notion that hunting could be barred on the Refuge system 
was simply incomprehensible. By the mid-90's, however, there had been a 
string of anti-hunting lawsuits to bar hunting on refuge lands. Even 
though President Clinton issued an executive order recognizing the 
value of continued hunting on the Refuge system, Congress saw the need 
to codify such recognition in statute stating clearly that hunting and 
fishing were legitimate activities on refuge lands, the managing agency 
had a duty to facilitate these activities, and fishing and hunting 
merited designation as priority public uses in the law. After the bill 
was signed by President Clinton, virtually all of the anti-hunting 
lawsuits stopped.
    President Bush in 2008 issued a similar hunting executive order 
(EO) for public lands. Just as the Clinton EO was insufficient to guard 
hunting on refuges, the Bush EO is not enough to protect hunting and 
fishing on Forest and BLM lands. Accordingly, we urge this Committee, 
and Congress, to provide needed statutory protection for Forest and BLM 
lands by enacting H.R. 2834.
    USSA has been urging Congress to pass comparable legislation since 
1998. Initially we were told there was no need and previous versions of 
this bill were dismissed as ``solutions in search of a problem.'' The 
intervening years have taught of the sporting community that there is a 
problem. Decisions like the 6th Circuit's Meister case exposed how 
quickly hunting can be lost. Activists have mounted efforts to preempt 
state management and bar bear hunting on public lands. Clever lawsuits 
seek to misuse federal environmental laws to restrict or ban fishing 
and hunting on federally administered lands. The hostile animal rights 
movement has grown and uses its ever swelling war chest to harass 
hunters and anglers. And an increasingly urban nation--wholly 
disconnected from America's outdoor heritage--either doesn't care or 
joins in the hostility. Continued silence in the law regarding the 
legitimacy and contributory roles of fishing and hunting on Forest and 
BLM lands will ultimately cause the loss of these activities on over 
400 million acres of our public lands.
    This silence must be corrected and H.R. 2834 does precisely that. 
It plainly recognizes fishing, hunting and shooting as legitimate and 
important activities on Forest and BLM lands. It directs the agencies 
to exercise their discretion, consistent with the other applicable law, 
to facilitate fishing, hunting (and trapping as a hunting activity) and 
shooting. This duty extends to the preparation of land planning 
documents required by the National Forest Management Act and FLPMA. No 
one will be able to argue to an agency or a court, with a straight 
face, that fishing and hunting have no place on these public lands 
following enactment of this bill.
    One of the clever ploys to indirectly attack these activities has 
been to treat continuation of fishing and hunting as a ``new'' decision 
or action requiring completion of a full blown environmental impact 
statement (EIS). Antis then file suit contending the EIS was inadequate 
and that the decision to ``open'' an area to fishing or hunting must be 
suspended until the EIS is made adequate. H.R. 2834 provides a simple 
solution: Forest and BLM lands are considered ``open'' to fishing and 
hunting so no new EIS or other document needs to precede continuation 
of these traditional activities. The Forest Service and BLM remain free 
to impose those restrictions and closures that they determine are 
necessary (if supported by facts and evidence) but an ``open until 
closed'' regime will be far more efficient, save millions of dollars of 
administrative expense, and insulate fishing and hunting from 
unwarranted indirect attacks.
    USSA strongly applauds other features of the bill that facilitate 
wildlife conservation, ensure fishing and hunting opportunities, and 
help the agencies direct finite personnel and dollar resources to on-
the-ground conservation rather than more planning documents. In 2003, 
antis sued to stop hunting on 60 wildlife refuge units arguing that 
even though the Fish and Wildlife Service had done EIS's or 
environmental assessments (EA's) authorizing hunting on each unit, FWS 
had not (the antis claimed) done a sufficient ``cumulative effects 
analysis'' on the overall effects of hunting on the entire Refuge 
system. We intervened in the case with Ducks Unlimited, NRA, and SCI 
and argued--along with FWS--that deer hunting on the Bond Swamp unit in 
GA, woodcock hunting in the Canaan Valley, WV refuge, and duck hunting 
on ND units for example had such limited and unconnected effects that a 
``cumulative effects'' review made no sense. Moreover, Congress in the 
1997 Refuge Improvement Act made it clear that unit-by-unit 
Comprehensive Conservation Plans (CCP's), dovetailed with EIS or EA 
documents, would be sufficient to approve the priority public uses of 
fishing and hunting. A D.C. judge disagreed, ordered FWS to prepare the 
cumulative effects analysis, and FWS spent years and countless hours of 
personnel time and money engaging in this superfluous paper exercise--
using precious dollars that would have been better spent on actual 
wildlife conservation and refuge management. And last week FWS had to 
pay anti-hunting plaintiffs over $100,000 in attorney's fees for this 
case--more money diverted from conservation. Section 4(c)(1)(B) of H.R. 
2834 reiterates the intent of the 1997 Act that FWS need not prepare 
unnecessary, costly cumulative effects analyses to continue to open 
refuge units to fishing and hunting and ensures that anti-hunting 
plaintiffs cannot capitalize on the D.C. court ruling to collect even 
more fees for their lawyers.
    Section 4(e) of the bill also restores the status quo regarding the 
1964 Wilderness Act that existed between 1964 and 2005. For example, 
some refuge units are overlaid with Wilderness designations. The 1964 
Act--section 4(a) to be precise--specifies that Wilderness purposes 
``are hereby declared to be within and supplemental to'' the purposes 
of the underlying land unit. In the case of refuges, that plainly means 
a unit is Wildlife Refuge first and a Wilderness second. In case of a 
conflict, the wildlife conservation purpose and mission of the Refuge 
system would be primary and Wilderness purposes secondary. That was the 
state of the law until recent 9th Circuit rulings in the Kofa Refuge 
case. Kofa was established by President Franklin Roosevelt with the 
primary purpose of conserving desert bighorn sheep. Over the years, 
FWS, the Arizona Department of Game and Fish and conservationists 
learned that water supplies are the primary factor limiting sheep 
populations. To enhance the bighorn population and provide greater 
genetic diversity to assure long term survival, the parties constructed 
during the 1980's small water catchment basins in Kofa to retain 
precious rain water and keep it from simply sinking into the sand. 
These small unobtrusive basins became important oases for the sheep 
(and other wildlife) and the population prospered.
    Wilderness activists were upset that some of these small basins 
were situated in parts of Kofa designated as Wilderness by Congress in 
1990 (after the basins had been built). Last year two 9th Circuit 
judges disregarded the Wilderness Act ``supplemental purposes'' 
language, held that Kofa is Wilderness first and Refuge second, and 
ordered FWS that the water basins had to go unless the agency could 
demonstrate that the basins were ``necessary'' to fulfill Wilderness 
purposes. These legal conclusions are simply wrong, must be corrected 
by Congress and section 4(e) does just that.
    The 1964 Act also allows a variety of activities in Wilderness 
areas when ``necessary'' to assist wilderness purposes. For decades, 
agencies like BLM and the Forest Service interpreted this to allow a 
variety of outdoor recreational activities including horseback trips. 
But activists disagreed and sued arguing that horseback trips were not 
``necessary.'' The 9th Circuit agreed and has made the ``necessary'' 
finding much more difficult for both recreation and conservation 
actions (e.g., Kofa, Tustemena Lake case). USSA believes it is only a 
matter of time before antis go to court to argue that neither fishing 
nor hunting is ``necessary'' in Wilderness areas. We have every reason 
to believe that hostile Forest Service or BLM political personnel, or 
the 9th Circuit, will buy this bogus argument and impose new 
restrictions on anglers and hunters in Wilderness areas. Rather than 
wait--and worry--we urge Congress to stop this nonsense and enact 
corrective legislation like H.R. 2834.
    Thank you again for the opportunity to appear on behalf of the 
Recreational Fishing and Hunting Heritage and Opportunities Act. USSA 
is committed to working with the Committee to assure prompt favorable 
action on this important legislation.
                                 ______
                                 
    Mr. Broun. Thank you, Secretary Horn. I want to add a 
little thing. We have seen the warning that you bring to us as 
playing out a different issue, but Lake Lanier that supplies 
water for Atlanta, Georgia in Gwinnett County, Georgia, doesn't 
have statutorily in its water use that humans can utilize that 
water for consumption, and we have seen a Federal judge come 
and rule that Atlanta and Gwinnett County cannot take water out 
of the lake where it has been going on since that lake was 
first impounded, so I think it is extremely necessary to have 
this statutorily placed so that Federal judges and other can't 
do that, so I thank you for your testimony.
    Now Ms. Simpson, I think the Safari Club is the voice of 
wisdom on conservation and hunting issues, particularly since I 
was so strongly involved with the Safari Club as you very well 
know. You are recognized for five minutes, looking forward to 
what you have to say.

 STATEMENT OF MELISSA SIMPSON, DIRECTOR OF GOVERNMENT AFFAIRS, 
                   SAFARI CLUB INTERNATIONAL

    Ms. Simpson. Thank you, Mr. Chairman, and Members of the 
Committee. I appreciate the opportunity to appear before you 
today to share the views of 100,000 Safari Club International 
members and its affiliates, all of whom support H.R. 1444 and 
H.R. 2834.
    My name is Melissa Simpson. I am Director of Government 
Affairs for Safari Club International here in Washington, D.C.
    SCI's missions are the conservation of wildlife, protecting 
of hunting, and education of the public concerning hunting and 
its use as a conservation tool. SCI believes that Federal lands 
should be managed under the principles of multiple use to 
maximize habitat for wildlife and protect our outdoor heritage. 
We believe the opportunity to hunt and fish on Federal lands 
should be a priority for every land and resource and management 
plan.
    H.R. 1444 and H.R. 2834 would require Federal agencies to 
ensure that abundant hunting and fishing opportunities are 
provided for. Some organizations have stated that this 
legislation is unnecessary. Meanwhile. litigious anti-hunting 
groups have misused well-meaning environmental laws to stop 
hunting and fishing anywhere possible.
    In addition, the continual stream of regulations from the 
Administration that discourage participation in outdoor 
recreation appears to be a coordinated front to our hunting 
heritage.
    In the last two years the Forest Service, the Bureau of 
Land Management and the Fish and Wildlife Service have 
introduced anti-hunting policies. Secretary Vilsack's 
memorandum on roadless areas, the Forest Service planning rule, 
Secretary Salazar's wild lands order, the BLM's shooting range 
policy, and the Fish and Wildlife Service vision document are 
all examples of where multiple-use management is being 
curtailed to the detriment of wildlife and access for sportsmen 
is being denied.
    Since the beginning of the last century, sportsmen have 
voluntarily contributed to conservation through license fees 
and excise taxes to ensure that wildlife would be around for 
future generations. Now we need your help. If Congress does not 
expressly designate hunting and fishing as priority uses of our 
Federal lands it is only a matter of time before we lose these 
opportunities that have been central to the North American 
model of wildlife conservation.
    We need Congress to pass H.R. 1444, H.R. 2834, and the 
handful of other pro-sportsmen bills that have been introduced 
in the 112th Congress to help protect our outdoor heritage.
    Mr. Chairman, I would also like to highlight the Jobs 
Frontier Report released by the Western Caucus this week. SCI 
calls upon Congress and the Administration to please give full 
consideration to the report's conservation and wildlife 
provisions. They include the legislation being considered by 
the Subcommittee today in addition to H.R. 1581, the Wilderness 
and Roadless Area Release Act.
    Thank you for this opportunity. I would be happy to answer 
any questions.
    [The prepared statement of Ms. Simpson follows:]

 Statement of Melissa Simpson, Director of Government Affairs, Safari 
 Club International, on H.R. 1444, ``Recreational Fishing and Hunting 
     Heritage Opportunities Act'' and the ``Cabin Fee Act of 2011''

    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you today to share my views, the views of 
Safari Club International, and the sportsmen's community, all of whom 
support H.R. 1444 and H.R. 2834.
    My name is Melissa Simpson. I serve as the Director of Government 
Affairs for Safari Club International (SCI). SCI's missions are the 
conservation of wildlife, protection of hunting, and education of the 
public concerning hunting and its use as a conservation tool. SCI works 
both nationally and globally to protect hunting opportunities and 
strengthen the link between hunting and wildlife conservation.
    Safari Club International believes that U.S. Federal lands should 
be managed under the principles of multiple-use. Outdoor recreation, 
including hunting and fishing, have been and should continue to be a 
primary use of U.S. Federal lands. The opportunity to hunt and fish on 
Federal lands should be a priority for every land and resource 
management plan. H.R. 1444 and H.R. 2834 would require Federal agencies 
to ensure abundant hunting and fishing opportunities are provided for 
unless hunting and fishing are determined to be incompatible with a 
specific unit of land.
    Mr. Chairman, in the past some organizations have stated that this 
legislation is unnecessary. This could not be further from the truth, 
hunting is under attack. Litigious anti-hunting organizations have 
misused well-meaning environmental laws to stop hunting and fishing 
anywhere possible. These organizations are aggressively seeking to 
undermine hunting opportunities on America's Federal lands. An attempt 
to end hunting in the National Wildlife Refuge System was recently 
defeated, but even now anti-hunting organizations are at work to 
eliminate hunting on our National Forests and BLM lands. If Congress 
does not expressly designate hunting and fishing as priority uses of 
our federal lands it is only a matter of time before we lose these 
opportunities that have been central to the North American Model of 
Conservation.
    In August of 2000, America's leading wildlife conservation 
organizations met to identify how best to work collaboratively to help 
chart the course for the future of wildlife conservation in the United 
States. These organizations formed the American Wildlife Conservation 
Partners (AWCP), a consortium of over 40 organizations representing 
over 4 million hunters at the time. The impetus for this historic 
meeting was the urgent recognition that habitats on federal forests and 
rangelands were deteriorating; declines in hunter participation was 
putting America's hunting heritage at risk, and along with it, the 
tradition of America's game management; public conflict and 
polarization over wildlife issues were increasing; and finally, the 
stewardship of federal lands was hampered by conflicting laws and 
regulations guiding the management of these lands. AWCP subsequently 
presented ``Wildlife for the 21st Century'' policy recommendations to 
President George W. Bush in both his terms and to President Barack 
Obama in 2009.
    In the decade that AWCP has engaged the Administration, sportsmen 
have tirelessly worked to resolve the same ongoing issues with the 
federal land management agencies. During the Bush Administration, I 
served as a liaison to the sportsmen's community through high level 
positions at the Department of the Interior and US Department of 
Agriculture, focusing on facilitating relationships between the Bureau 
of Land Management and the US Forest Service with the sportsmen's 
community to better integrate sportsmen's issues into agency decision 
making, specifically focusing on access to public lands.
    In 2005, I organized a conference between Interior and AWCP to 
advance their policy recommendations. Policy sessions with high-level 
Administration officials, the Interior Secretary, Interior Counsel and 
AWCP executives led to the recognition that the hunting community 
needed a more direct conduit to engage the Administration. 
Consequently, the Secretaries of the Interior and Agriculture 
established the Sporting Conservation Council (SCC); a federal advisory 
committee specifically for members of the hunting community to advise 
on access, conservation funding, habitat management, and hunter 
recruitment and retention. The SCC recommendations resulted in 
President Bush's Executive Order #13443: Facilitation of Hunting 
Heritage and Wildlife Conservation, which called for a White House 
Conference on North American Wildlife Policy and a ten year 
Recreational Hunting and Wildlife Conservation Plan. The ten year plan 
was referenced by the Obama Administration in the charter for the 
current sportsmen's federal advisory committee, the Wildlife Hunting 
Heritage Conservation Council.
    In 2006, 40 hunting, fishing and wildlife organizations and three 
federal agencies signed the Federal Lands Hunting, Fishing, and 
Shooting Sports Roundtable Memorandum of Understanding with the purpose 
of ``implementing mutually beneficial projects and activities.'' The 
chief of the US Forest Service has repeatedly reminded field staff of 
the importance of hunting and sport shooting on national forest lands 
through directives. Lastly, the Sport Fishing and Boating Partnership 
Council was established to benefit recreational fishing. Despite all 
these efforts and the supposed commitment of the present Administration 
to hunting and fishing opportunities, the reality is that the policies 
and regulation currently being proposed actually undermine the efforts 
of the past ten years.
    While sportsmen and women began with high hopes for the 
Administration, it has become increasingly clear that these hopes were 
based on paper promises. The continual stream of regulations that 
discourage participation in outdoor recreation has come from many 
different agencies and appears to be a coordinated affront to our 
hunting heritage. In the last two years, anti-hunting regulations have 
come from most of the public land agencies including the Forest 
Service, the Bureau of Land Management, and the Fish and Wildlife 
Service. Nor has the current Administration made progress in 
implementing the ten year Recreational Hunting and Wildlife 
Conservation Plan.
    Mr. Chairman, at the beginning of the last century sportsmen saw 
the problems that over-utilization can do to wildlife. Hunters and 
anglers asked to contribute to conservation through license fees and 
excise taxes to ensure that wildlife would be around for future 
generations. Over the last century sportsmen and women have upheld our 
end of the bargain and provided billions of dollars to conserve 
wildlife including over 75% of all funding for state conservation 
agencies. Now we need your help. We need Congress to pass H.R. 1444, 
H.R 2834 and the handful of other pro-sportsmen bills that members have 
been introduced in the 112th Congress and help protect our outdoor 
heritage.
    Thank you for the opportunity and I would be happy to answer any 
questions that the Committee might have.

                  List of Anti-hunting Regulatory and 
             Administrative Actions over the last 12 months

U.S. Fish and Wildlife Service Vision Document
    A second draft of the refuge vision document was recently published 
by the Fish and Wildlife Service (FWS). The document is to provide 
direction for National Wildlife Refuges for the next generation. The 
newest version of the vision document again neglects hunting and 
recreation while greatly expanding the FWS's mission to include 
controversial climate change adaptation. The Hunting Advisory Council 
created by the Administration (Wildlife and Hunting Heritage 
Conservation Council) has recommended changes to the vision document 
after the first draft was released, and even their recommendations are 
ignored in the second draft.
Forest Service Planning Rule
    The Forest Service released the Draft Planning Rule on February 10, 
2011 (76 FR 8480). When it is finalized (Fall 2011) this Rule will 
affect every land management plan on the 193 million acres of the 
National Forest. SCI and many other hunting and conservation groups 
filed comments expressing fundamental concerns with the rule.
        <bullet>  The Draft Planning Rule makes negligible mention of 
        hunting and offers little in the way of express protections for 
        hunting, potentially inviting the courts to resolve questions 
        over the role that hunting will play on National Forests in the 
        future.
        <bullet>  The definition of the phrase ``sustainable 
        recreation'' makes no specific mention of hunting. In addition, 
        the definition is troublesome because it restricts 
        ``sustainable recreation'' to opportunities, uses and access 
        that are ecologically, economically and socially sustainable, 
        without providing a definition of what qualifies as ``socially 
        sustainable.''
Secretary Vilsack's Memorandum
    Secretary Vilsack has issued memorandum for the last three years 
that reserve all decisions over road construction, or timber removal to 
the Secretary's office. (Secretarial Orders 10420-154,10420-155,10420-
156) These orders take the power of land management away from local 
decision makers and concentrate that power in Washington, D.C. By 
removing these powers from local land managers, the Secretary's office 
is greatly limiting the ability of local land manager to thin forests 
to reduce the chances of catastrophic wildfire, mitigate insect 
infestation, and manage forest habitat for the benefit of wildlife.
BLM Shooting Range Policy
    Earlier this year the BLM issued a draft shooting range policy. 
This policy fails to acknowledge the traditional and historic use of 
public lands for recreational shooting. Even worse the policy maintains 
the BLM's current policy of not operating shooting ranges or issuing 
new leases for shooting ranges because of the ``potential liability 
related to lead contamination of the environment.'' This is a false 
concern because, as the BLM is fully aware, the EPA has developed 
guidance for management of spent lead ammunition at shooting ranges. 
SCI believe that this policy sends a negative message to land managers 
about the role that recreational shooting should have on BLM land.
Wild Lands Order
    In December 2010 Secretary Salazar issued Secretarial Order 3310, 
containing the controversial Wild Lands policy, without any public 
input. This policy would have allowed the BLM to circumvent 
Congressional authority over designating wilderness by allowing the BLM 
to use the public resource management planning process to designate 
certain lands with wilderness characteristics as ``Wild Lands.'' 
Sportsmen and the Association of State Fish and Wildlife Agencies 
(representing the 50 state fish and wildlife agencies) opposed this 
order because it would undermine states' authority by creating 
unnecessary barriers to fish and wildlife management and related 
recreation on public lands. The Secretary reversed this Order only 
after Congress acted to remove funding for this policy.
FWS Importation Problems
    Importation of hunting trophies into the United States has become 
more difficult over the past few years. SCI members have been subject 
to an increasing frequency of seizures of hunting trophies that are 
being imported into the United States by the Fish and Wildlife Service. 
These seizures seem to be the result of minor paperwork problems and 
seizure or forfeiture of expensive wildlife trophies is an outsized 
penalty for minor paperwork errors, especially when many of these 
errors are caused by wildlife officials in developing countries.
    Additionally, the administration was unwilling to support a 
beneficial definition of ``hunting trophies'' at the last Conference of 
the Parties of the Convention on International Trade of Endangered 
Species (CITES) in 2010 that would have helped reduce the seizure 
problem.
                                 ______
                                 
    Mr. Broun. Thank you, Ms. Simpson, appreciate your hard 
work for SCI and for hunters around the country. God bless you. 
I really appreciate your work.
    Ms. Recce, thank you again for being here. I know you have 
been very hard at work for many years on these issues. You are 
now recognized for five minutes. Look forward to your 
testimony.

 STATEMENT OF SUSAN RECCE, DIRECTOR, DIVISION OF CONSERVATION, 
  WILDLIFE, AND NATURAL RESOURCES, NATIONAL RIFLE ASSOCIATION

    Ms. Recce. Thank you, Mr. Chairman. I appreciate the 
invitation to testify.
    The National Rifle Association strongly supports H.R. 2834 
and commends the sponsors for its introduction. The bill 
contains a number of important objectives. It recognizes the 
rightful place of hunting, fishing, and recreational shooting 
on Federal lands, and ensures that these historic and 
traditional public uses are embedded in land management plans. 
It supports Executive Order 13-443 that directs Federal 
agencies to facilitate the expansion and enhancement of 
hunting. It removes barriers to providing safe and responsible 
use of Federal lands and restores Congressional intent in laws 
that court rulings have misconstrued and which will certainly 
bring harm to hunting, fishing, and other recreation.
    The Forest Service and the BLM manage their lands as open 
unless closed, but that policy holds hidden pitfalls. It 
doesn't encourage proactive management of recreation. It 
doesn't prevent sudden and arbitrary closures, and it doesn't 
require reasonable access to these open lands.
    H.R. 2834 provides the security we need for the future of 
our historic and traditional uses. The bill takes guidance from 
the 1997 Refuge System Improvement Act which protects hunting 
and fishing on refuge lands and requires land managers to 
proactively provide for these public uses. The passage of the 
Act was in part a response by litigation from animal rights 
activists who were attacking hunters and anglers, the very 
people who help create the refuge system and fund it for the 
last seven decades. Passage of H.R. 2834 will ensure the 
protection of these public lands public usage is accorded to 
national forests and BLM lands.
    The bill also reverses a recent court ruling in a case 
brought by the same activists whose sole mission was to grind 
to a halt the Fish and Wildlife Service's ability to open 
refuges to hunting and fishing. The bill affirms the test of 
compatibility enshrined in the Improvement Act and provides 
sufficient assurance that these programs will not have adverse 
environmental impacts.
    Because land management plans set the stage for and drive 
decisions made about and use, it is paramount that hunting, 
fishing, and shooting are addressed in these plans. If they 
aren't, they can cease to exist.
    The bill also prevents land closures without public notice, 
comment and supported by sound science. This takes bias and 
personal agenda out of the equation. The bill also requires 
that all land management plans include evaluation of the 
effects that management alternatives have on our traditional 
uses. All too often it is impossible to determine how these 
decisions will affect us.
    Americans need places to target practice and sight in their 
hunting rifles. In much of the West the only places for 
informal shooting are found on Federal lands managed by the 
Forest Service and the BLM. Planners need to be able to 
identify and designate areas that are suitable for safe 
shooting, but the agency's claim they can't do it because it 
imposes an undue liability against the government. This is 
prejudicial and discriminatory treatment of a recreational 
activity that has a record of one of the safest activities on 
Federal lands. The bill permits the agencies to designate safe 
shooting areas without incurring liability.
    The bill also safeguards the interest of the states by 
protecting them from being burdened with the responsibility of 
providing public use when recreationalists are displaced from 
Federal lands by irresponsible management decisions, and it 
reverses a Sixth Circuit Court ruling that has enormous 
implications for hunting, fishing, and for that matter all 
recreation on forest lands across the country.
    Another provision of the bill addresses BLM's recent 
decision to no longer lease land to build a shooting range. The 
BLM changed its policy because of concern that leased land 
returned to the agency would require environmental clean up, 
but EPA's guidance from management of spent lead ammunition has 
been in place since 2003, and it is designed to obviate the 
need for environmental clean up if a shooting range closes. The 
concern from BLM is simply a smoke screen.
    And last, the BLM supports language ensuring that the 
designation of Forest Service and BLM wilderness, wilderness 
study areas, primitive and semi-primitive areas cannot be used 
to preclude hunting, fishing, and shooting, and I add that it 
does not open up wilderness areas to mechanized or motorized 
uses. And the bill restores its status quo regarding 
recreational and sound wildlife management practices in 
wilderness areas by overturning a Ninth Circuit Court ruling. 
The court's imposition of an necessity test gives Federal land 
managers and future animal rights litigators the tool to 
distort the Wilderness Act for the purpose of closing these 
lands to hunters and anglers and wildlife management.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Recce follows:]

Statement of Susan Recce, Director, Conservation, Wildlife and Natural 
  Resources, National Rifle Association, on H.R. 2834 ``Recreational 
          Fishing and Hunting Heritage and Opportunities Act''

    Mr. Chairman, the National Rifle Association (NRA) appreciates the 
invitation to testify today on legislation that is critical to securing 
the future of our hunting, fishing, and recreational shooting heritage 
on Federal public lands. We commend the sponsors of H.R. 2834, the 
``Recreational Fishing and Hunting Heritage and Opportunities Act,'' 
for its introduction and pledge our support for and assistance in its 
passage through Congress.
    H.R. 2834 accomplishes six important objectives and they are the 
following:
        <bullet>  First, it recognizes the rightful place of hunting, 
        fishing and recreational shooting on Federal public lands.
        <bullet>  Second, it ensures that these historic and 
        traditional public uses are responsibly provided for in land 
        management plans as are other popular recreational activities 
        like hiking and camping.
        <bullet>  Third, it applies this policy across the board in our 
        Federal land systems.
        <bullet>  Fourth, it supports Executive Order 13443 titled 
        ``Facilitation of Hunting Heritage and Wildlife Conservation'' 
        that directs the relevant Federal agencies to ``facilitate the 
        expansion and enhancement of hunting opportunities and the 
        management of game species and their habitat.''
        <bullet>  Fifth, it removes barriers to providing safe and 
        responsible public use of Federal lands.
        <bullet>  Sixth, it restores Congressional intent in laws that 
        court rulings have misconstrued and which will cause 
        deleterious effects on hunting and other recreational pursuits, 
        as well as on sound wildlife management practices.
    The NRA has long been involved in issues related to sportsmen's 
access to our Federal public lands. We have participated in numerous 
symposia, research studies, and surveys focused on barriers to access 
and opportunities to hunt and target shoot. Beginning in 1996, the NRA 
has chaired a Roundtable with representatives of Federal land 
management agencies and national hunting, wildlife conservation, and 
shooting sports organizations. The Roundtable was created by a 
Memorandum of Understanding (MOU) that seeks to resolve issues and 
enhance opportunities related to hunting and recreational shooting. The 
current MOU titled ``The Federal Lands Hunting, Fishing and Shooting 
Sports Roundtable'' is signed by the Forest Service, Bureau of Land 
Management (BLM), Fish and Wildlife Service (FWS), and 40 national 
hunting, fishing and shooting sports organizations. Fifteen years of 
experience has clearly defined what is achievable by working with our 
Federal agency partners and what can only be achieved through 
legislation, specifically through passage of H.R. 2834.
    The Forest Service and the BLM will state, in truth, that lands 
they manage are ``open unless closed'' to recreational activities 
meaning that millions of acres are opened to nearly unfettered 
recreational pursuit. But that policy holds hidden pitfalls. It does 
not encourage proactive management of recreation, it does not prevent 
sudden and arbitrary closures of public land to recreation, and it does 
not require that reasonable access to these open lands be provided. The 
land is simply open until at such time by administrative fiat it is 
closed. This policy provides no security for the future of our historic 
and traditional uses of Federal public lands.
    Years of working with the Federal agencies have demonstrated that 
even with directives sent from an agency head to the field recognizing 
the legitimate and historic use of Federal public lands for sportsmen's 
activities, the agencies are so decentralized that field managers are 
left to their own discretion as to whether headquarter memoranda are 
adhered to, or for that matter, whether they are read or remembered. 
H.R. 2834 provides the security we need. It directs that Federal land 
managers will support and facilitate the use of and access to Federal 
lands and waters for hunting, fishing, and recreational shooting.
    This provision of H.R. 2834 is not only in the best interests of 
sportsmen and women, but it is in the best interests of America's 
economy. The most recent economic report on hunting on Federal lands is 
the 2007 report conducted by Southwick and Associates and the American 
Sportfishing Association. The report found that hunting on just 
national forest lands alone annually generated $894 million in 
expenditures from 2000 to 2003. The report's executive summary noted 
that as these expenditures are spent and re-spent by businesses, 
additional economic effects are created for state and national 
economies. The money hunters spent supported over 21,000 full and part-
time jobs across the country, and increased Federal income tax receipts 
by $111 million.
    One objective of the above mentioned MOU is to work in partnership 
with the Federal agencies to resolve issues in a manner that prevents 
closures. There are some land managers who have worked with sportsmen's 
organizations in the spirit of the MOU partnership. However, when faced 
with a management challenge, the land manager's response is more often 
to close the area. Under H.R. 2834, Federal land that is being utilized 
for hunting, fishing, and recreational shooting cannot be closed 
without public notice and comment and supported by sound science. This 
removes biases and personal agendas from the Federal management of 
legitimate and traditional public uses.
    H.R. 2834 takes guidance from Congress' passage of the 1997 
National Wildlife Refuge System Improvement Act which elevated hunting, 
fishing and other wildlife dependent recreation above all other public 
uses and made them priority public uses of the Refuge System. The 
language of the Act was a direct result of litigation by animal rights 
activists who endlessly attempted to shut down the Refuge System to 
hunters and anglers, the very segment of our society who created the 
Refuge System and who has helped fund it for the past seven decades. 
Although H.R. 2834 does not elevate hunting, fishing, or recreational 
shooting above other uses of non-refuge lands, it will ensure that 
these activities are anchored in law for national forests and 
grasslands and for public lands managed by the BLM. Where H.R. 2834 and 
the Refuge Improvement Act converge is in requiring land managers to be 
proactive in providing for these public uses.
    Because land management plans set the stage for and drive decisions 
made about land use, it is paramount that hunting, fishing and 
recreational shooting are addressed in these plans. If they are not 
provided for in land management plans, they can easily cease to exist. 
As a case in point, there was a shooting range that the BLM considered 
unsafe so the agency requested the expertise of the NRA. NRA provided 
the expert who concluded that the range was located in a bad site and 
improvements were not possible to enhance safety. But the expert 
identified several suitable sites for relocation of the range. The 
BLM's response was that it could not entertain a new site because the 
recently adopted management plan for the area did not address 
recreational shooting--so such a relocation decision could not be made. 
With the closure of the range, the entire area was closed to 
recreational shooting. This is not atypical of the apathy and disregard 
for the needs and interests of local sportsmen and a breach of the 
goodwill as embodied in the MOU that occurs at the field level. The MOU 
is designed to forge partnerships, not adversarial relationships.
    All too often management plans are silent about the impacts of 
proposed management options on these public uses, making it impossible 
to assess how they will be treated. For example, both the Forest 
Service and the BLM have been developing Travel Management Plans that 
designate routes and trails for motorized vehicle use. Some plans make 
an exception for the use of a vehicle to retrieve legally downed big 
game some distance off a designated route. Other plans make no 
exception. It is completely arbitrary at the local level as to how 
hunting access will be treated, particularly for older and disabled 
hunters. H.R. 2834 requires that all land management planning documents 
include evaluations of the effects that management alternatives have on 
opportunities to engage in hunting, fishing, and recreational shooting.
    H.R. 2834 directs Federal land managers to support and facilitate 
the use and access to public lands and waters for hunting, fishing and 
recreational shooting through the land management planning process. 
Land managers will not address public uses unless the subject is 
brought up by the public during the initial stages of planning. 
However, even if it is, there is no guarantee how these public uses 
will be addressed in a plan. As an example, an area of BLM land 
undergoing a new land use plan had some 20 areas where informal 
recreational shooting took place. Concern for the future of that 
traditional use of the area was expressed by sportsmen in the initial 
planning stage. When the draft plan was released, the agency's selected 
management option was to close the entire area to recreational 
shooting. So even if hunting, fishing and recreational shooting have 
traditionally been conducted on a unit of Federal land and it is raised 
as a subject to address in a management plan, there is no guarantee 
that it will be fairly and responsibly treated. H.R. 2834 is the only 
way that sportsmen can be guaranteed their rightful place on their 
Federal public lands for now and into the future.
    Americans need places to target practice. In much of the West, the 
only places for informal shooting are found on Federal lands managed by 
the Forest Service and the BLM. Such places are important to introduce 
family members and friends to the safe and responsible use of firearms 
and to the enjoyment and challenge of sport shooting. But these places 
are also important to hunting because it is here where hunters can 
sight in their hunting rifles and where youth can get basic training 
before taking a hunter education course. Gone are the days when much of 
this land would be termed remote. All too often informal shooting sites 
are being threatened by encroaching development and conflict with other 
recreationists, exacerbated by anti-gun bias within the agencies. This 
is why it is critical that recreational shooting be addressed in land 
management plans.
    Planners need to be able to identify and designate areas that are 
suitable for safe shooting and to ensure that such suitable sites are 
not made unsuitable because a trail or campground was built in or 
through the area. But both the Forest Service and the BLM claim that 
they are unable to designate such areas because it imposes an undue 
liability against the United States. This response has no anchor in 
written policy that I can find. Nor does it explain why recreational 
shooting is being singled out as a liability. The agencies will tell 
you that recreational shooting has a record of being one of the safest 
activities on Federal public lands. Accidental injuries and death 
involving shooters or other recreationists pale in comparison to 
activities like off highway vehicle use, white water rafting, and 
horseback riding. But because the agencies have refused to address this 
prejudicial and discriminatory treatment of recreational shooting, H.R. 
2834 removes this roadblock to safe shooting by permitting the agencies 
to designate areas for recreational shooting without incurring 
liability for so doing.
    H.R. 2834 puts into law the ``open unless closed'' policy of the 
Forest Service and the BLM and establishes a transparent public process 
when the agency head intends to close an area or restrict its use by 
hunters, anglers and recreational shooters. Before the action can be 
taken, the public must be notified, the agency must show that it is 
necessary and reasonable and supported by facts and evidence, or 
mandated by other law. The NRA is also very supportive of the bill's 
parallel requirement that when an agency's action will have the effect 
of closing or significantly restricting hunting, fishing or 
recreational shooting on 640 or more contiguous acres (or an aggregate 
of acres affected), Congress and the public must first be notified and 
coordination must take place with the state fish and wildlife agency. 
There is an important reason to have state involvement because Federal 
land closures and restrictions transfer the management responsibility 
to the state to provide for the needs of the displaced recreating 
public.
    H.R. 2834 safeguards the interests of the states in providing 
access and opportunities for hunting, fishing, and recreational 
shooting by protecting states from being burdened with the Federal 
agencies' responsibilities for providing for these public uses as well. 
This is necessary step that Congress needs to take as a result of a 6th 
Circuit Court ruling in a lawsuit brought against the management plan 
for the Huron-Manistee National Forest (MI). The court said that the 
Forest Service's Planning Rule required it to take into account 
recreational activities, hunting in this case, that are ``duplicated'' 
on adjacent state or other Federal lands in determining whether the 
Huron-Manistee should remain open to hunting. This ruling poses threats 
to hunting, fishing, and recreational shooting and, for that matter, 
all recreational activities on forest lands across the country. It 
suggests that the states and Federal sister agencies are to find ways 
of accommodating recreationists that are forced off of forest lands 
because of this ruling. The new draft Forest Planning Rule does not 
correct this problem.
    The draft Forest Service Planning Rule is another excellent example 
of why administrative policies and rules cannot provide a secure future 
for our historic and traditional public uses and why H.R. 2834 is 
needed. The first public look at the Rule was an outline that barely 
mentioned recreation as an element, let alone an important element, of 
national forest management. The recreation community was assured that 
this would be rectified in the draft Rule itself. The draft Rule, which 
was released for review and public comment earlier this year, addresses 
recreation in the context of whether it is economically, socially and 
environmentally sustainable. Recreation is not defined and there is no 
explanation of what parameters the sustainability of any recreational 
activity will be measured against. These are real threats that need 
real solutions and the only real solution is passage of H.R. 2834. Just 
as the National Wildlife Refuge System Improvement Act dispensed with 
threats against hunting and fishing, so too has the time come to build 
into law security for these pursuits on Federal lands managed by the 
Forest Service and the BLM.
    Another provision of H.R. 2834 allows Federal agencies to lease 
land for shooting ranges. By way of background, the BLM also has a 
long-standing policy of not building or managing shooting ranges. This 
means that some 170 million acres of BLM land just in the lower 48 
states are closed to any infrastructure for recreational shooting, 
including basic improvements like berms, target holders and shooting 
benches, even if the improvements would enhance shooting safety. It is 
impossible to understand how trails can be built or campsites can be 
provided for, but yet simple, cost-effective improvements for shooting 
are not allowed by policy. I would like to see language inserted in the 
bill directing the BLM to provide for such improvements when those 
improvements would enhance the safety of a shooting area and reduce 
potential conflicts with other public land users.
    The bill's language, however, responds to a recent policy adopted 
by the BLM instructing field managers not to lease lands for shooting 
ranges. The BLM stated that this change in policy was due to concern 
over environmental liability, specifically concern that leased land 
returned to BLM management will contain spent lead ammunition requiring 
the agency to engage in an environmental cleanup. The BLM knows very 
well that in 2003 the EPA issued guidance for the management of spent 
lead ammunition at shooting ranges. The guidance is titled ``Best 
Management Practices for Lead at Outdoor Shooting Ranges.'' The 
guidance is designed to obviate the need for environmental cleanup if 
and when a shooting range closes. This concern over environmental 
liability is simply a smoke screen which the BLM is happy to hide 
behind.
    BLM's response is that land leasing is unnecessary because it has 
the authority to patent land under the Recreation and Public Purposes 
Act to a state or local entity for the purpose of building a shooting 
range for the community. However, BLM does not reveal the exceedingly 
long and costly process involved. Land has to be identified for 
disposal in a land management plan, the agencyhas to have the interest 
and funding to pursue a patent request, and there are numerous and 
costly environmental studies that must be conducted. One such example 
is the transfer of BLM land to the Arizona Game and Fish Department 
which took on the responsibility of building and managing a shooting 
range to replace one on BLM land that had been closed. It has taken 14 
years to complete the process of just transferring the land. No spade 
of dirt has yet been turned and local sportsmen continue to wait for a 
place to go shooting. This policy needs to be reversed. Both of BLM's 
policies, on allowing infrastructure to be built and on leasing lands, 
are clear examples of discriminatory and prejudicial treatment of a 
legitimate and traditional activity that ultimately shifts the 
management responsibility to the Forest Service and the states.
    Turning to other sections of the bill, the NRA supports language 
ensuring that the designation of Federal land as wilderness, wilderness 
study areas, primitive and semi-primitive areas under the management of 
the Forest Service and the BLM cannot be used to preclude hunting, 
fishing and recreational shooting. And H.R. 2834 restores the status 
quo regarding recreation and sound wildlife management practices in 
wilderness areas by overturning a 9th Circuit Court ruling that 
disallowed the restoration of water catchments for the survival and 
enhancement of desert bighorn sheep in the wilderness portion of the 
Kofa National Wildlife Refuge, a refuge established to protect and 
enhance this species. The Court ruled that the Refuge had not exhausted 
all other means to protect the sheep and so could not show that these 
water catchments were necessary. The Court's imposition of a 
``necessity'' test gives Federal land managers and future anti-hunting 
litigators the tool to distort the Wilderness Act for the purpose of 
closing these lands to hunters and anglers and wildlife management. 
H.R. 2834 also makes an important statement that the primary purpose 
for which a unit of Federal land was established guides its management 
and that a wilderness overlay cannot materially interfere or hinder 
that guidance.
    And lastly, the NRA supports language in H.R. 2834 that reinforces 
Congressional intent in the National Wildlife Refuge Improvement Act 
which requires hunting and fishing programs to be compatible with the 
purposes for which the specific refuge was established and with the 
mission and purposes of the National Wildlife Refuge System. Litigation 
by anti-hunting organizations and a subsequent court ruling resulted in 
an additional layer of analysis being imposed upon the agency. This 
additional layer of review is unnecessary and costly to the FWS which 
is already struggling with huge backlogs in operation and maintenance 
needs within the Refuge System.
    The compatibility test provides sufficient assurance that hunting 
and fishing programs will not have adverse environmental impacts. That 
was proven a number of years ago in a different lawsuit filed against 
the Service over refuge hunting and fishing programs. A thorough and 
exhaustive review was conducted of the hundreds of programs with the 
result that an adjustment was made to one hunting program and one 
fishing program had to be closed. There was no evidence then and none 
now that suggests taxpayers' dollars are well served by pointless 
layers of analyses behind the test of compatibility. The only desire of 
the plaintiffs was to find some other means of grinding to a halt the 
FWS' ability to open refuges to hunting and fishing and enhancing 
existing programs.
    In conclusion, the NRA wholeheartedly supports H.R. 2834 because it 
legislatively recognizes the legitimate and traditional activities of 
hunting, fishing and recreational shooting on Federal public lands. It 
safeguards these activities from prejudicial and discriminatory 
treatment. It requires the Federal land manager to be proactive in 
managing these activities through the land management planning process. 
It makes administrative decisions that close or significantly restrict 
these activities to be anchored in a transparent public process and 
removes administrative and judicial roadblocks that obstruct sound and 
responsible management of recreation and wildlife resources.
    Thank you, again, for the opportunity to testify on H.R. 2834
                                 ______
                                 
    Mr. Broun. Thank you, Ms. Recce. Appreciate you all's 
testimony. Now we will turn to questioning. I will recognize 
myself for five minutes.
    Mr. Horn, you heard the representatives from the 
Administration's testimony. You also heard Mr. McClintock's 
questioning, I am sure, previously, and I would like to give 
you an opportunity to make a comment. Do you have any comments 
about the testimony from the Forest Service or the BLM?
    Mr. Horn. Well, I think it is safe to say we are 
disappointed by the overt opposition. As I said, I talked about 
the 1997 Refuge Act, and I can recall when we had hearings on 
that proposed bill in 1996 the then administration was 
adamantly opposed to the then Refuge Administration Act. 
Secretary Babbitt sat right here and threatened veto of the 
bill that was signed into law by President Clinton a year and a 
half later.
    I think that the statutory recognition of fishing and 
hunting in the Refuge Act has proven to be a great success from 
an agency perspective and from the perspective of the angling 
and hunting and conservation community, and what we are trying 
to do here is to essentially enshrine in law these expressed 
references to the legitimate role that these activities have on 
the two major public land systems so that they can point to 
provisions in the law to defend continuation of these 
activities. It worked in the refuge system. As a matter of 
fact, Mr. Ratcliffe talked about the 1997 Act in his statement. 
It worked there. We see no reason why comparable legislation 
like 2834 cannot work in regard to the Forest Service and BLM 
lands.
    Mr. Broun. Thank you, Mr. Horn.
    Mr. Ratcliffe, has hunting harmed, damaged, destroyed any 
of the refuges that you know of?
    Mr. Ratcliffe. I would defer that question to----
    Mr. Broun. Turn on your microphone, please.
    Mr. Ratcliffe.--Jeff Rupert from the Fish and Wildlife 
Service.
    Mr. Rupert. Yes, sir. My name is Jeff Rupert, and I work 
with U.S. Fish and Wildlife Service, National Wildlife Refuge 
System.
    Your question, has hunting activities harmed refuges in an 
way, shape or for, from a Fish and Wildlife perspective, you 
know, the Refuge Administration Act, which governs the refuge 
system and provides the mandate for us that effectively 
promotes hunting on refuges, we administer hunt activities 
based on a compatibility standard that looks at potential 
impacts or effects prior to creating or administering the hunt. 
And no, we haven't seen--we haven't seen negative impacts that 
I am aware of.
    Mr. Broun. Well, thank you. I appreciate that testimony. 
And the contributions of the hunter conservation and fishermen 
conservation is basically the true conservationists in this 
country in my opinion are the hunters, the fishermen, the 
farmers and the foresters because they really take care of the 
land, they put money where their mouth is, and that is the 
reason that these activities are absolutely critical in the 
management of the Federal lands.
    Secretary Horn, what effect would it have on NEPA, these 
bills?
    Mr. Horn. The only provision in H.R. 2834 that has any 
impact on NEPA is to, again, restore the legal status quo that 
existed up until just a couple of years ago involving 
determinations that the refuge system makes regarding hunting 
and fishing. The 1997 Refuge Act provides that each unit in the 
refuge system has to have a comprehensive conservation plan, a 
CCP, which is the counterpart to plans that both the Forest 
Service and the BLM have for their respective units.
    In those CCPs Fish and Wildlife conducts NEPA compliance in 
the form of an environmental assessment or an environmental 
impact statement to make the compatibility statements that Mr. 
Rupert referenced.
    A few years ago, again one of the animal rights groups, 
brought a lawsuit against the Fish and Wildlife Service 
challenging a decision to allow hunting on 60 refuge units, 
arguing that even though the Service had done the CCPs and had 
done all the NEPA documents they hadn't done a sufficient 
cumulative effects analysis of the impact on the hunting on the 
entire refuge system. And the Service told the court, District 
judge here in D.C., how do we equate the impact of hunting deer 
on the Bon Swamp Refuge in Macon, Georgia, with shooting 
woodcock in Canaan Valley in West Virginia, or hunting moose on 
the Kenai Refuge in Alaska, those are such disconnected 
activities that trying to put together a cumulative effects 
analysis is probably a superfluous exercise and intellectually 
challenging to boot.
    Nonetheless, the D.C. Court said, no, you guy have to do 
this cumulative effects analysis, and Fish and Wildlife Service 
spent four years, thousands and thousands of dollars, thousands 
of personnel hours to put together this cumulative effects 
analysis that was ultimately upheld by the Judge.
    One of the provisions in 2834 says, no, the CCP process 
spelled out in the 1997 Act and the completion of EISs and EAs 
in conjunction with the CCPs fully satisfy NEPA, and there is 
no need to spend useless dollars doing this useless cumulative 
effects analysis on a system-wide basis. Our attitude is this 
provision [a] restores the status quo that Congress thought it 
was putting into place in 1997; and [b] we wish all those 
dollars that had been spent on that useless exercise, as well 
as a payment of $116,000 of legal fees to the lawyers for the 
animal rights group, should have been spent on refuge 
conservation where we had a hearing in another committee here 
in May about the budget shortfalls afflicting refuge 
management.
    So, that is the only provision in this bill that impacts 
NEPA.
    Mr. Broun. Thank you, Mr. Horn. My time is way past due. I 
now recognize the Ranking Member for five minutes plus if you 
would like it, sir.
    Mr. Grijalva. Thank you. Mr. Holtrop and Mr. Ratcliffe, you 
know, quickly if you could answer some of these. Just repeat 
the number of acres or percentage of Federal land under your 
respective agency's management that are open to hunting and 
fishing.
    Mr. Ratcliffe. For the BLM we estimate 95 percent of our 
lands are open.
    Mr. Grijalva. OK.
    Mr. Holtrop. I don't know if I have that precise a figure. 
I would have said something more than that on the National 
Forest System. The only exceptions might be recreation sites. I 
would guess something in that five or four percent of the area 
not open to hunting.
    Mr. Grijalva. And Mr. Rupert, would you chime in on what 
percentage?
    Mr. Rupert. I don't know the exact percentage figure; 
somewhere around 375 refuges are open to hunting.
    Mr. Grijalva. With those figures in mind, I keep searching 
to what the problem that Congress is being asked to solve here 
is. Are we turning away hunters and anglers from our public 
lands or are we not? Given the percentages, I guess we are not.
    Mr. Rupert, H.R. 1444 appears to prohibit the charging of 
any fees for anything other than cost recovery for hunting. 
What impact might this provision have on the Duck Stamp Program 
which under current law allows revenue to be used for land 
acquisition?
    Mr. Rupert. Yes, sir, thank you.
    Unclear. As you state, the duck stamp is required for 
hunters who are hunting migratory waterfowl. The proceeds from 
duck stamp sales are in turn used to acquire additional land 
with waterfowl habitat to be included in the National Wildlife 
Refuge System, and it is unclear what impact the fee provision 
may have on that. We would be very interested in having further 
discussions with the Committee----
    Mr. Grijalva. OK.
    Mr. Rupert.--to ensure that there are not any unintended 
consequences.
    Mr. Grijalva. Again, Mr. Rupert, 2834 contains a broad, I 
believe from my reading, a broad NEPA waiver for activities 
under the Refuge System Act. Could you discuss the impact of 
those waivers on the operations to the refuge?
    Mr. Rupert. Again, from Fish and Wildlife Service 
perspective, you know, we feel that--you know, again, the 
Refuge Administration Act, which governs these activities and 
the planning and the administration of these activities in the 
refuge system, you know, it does effectively promote hunting 
and fishing on refuges.
    Where it is compatible and where it is one of those primary 
wildlife-dependent recreational uses, we find it compatible. We 
believe that it is appropriate that the Refuge Administration 
Act gives that first priority to wildlife management and 
conservation----
    Mr. Grijalva. As Mr. Horn indicated that the NEPA waiver is 
narrow, is it as narrow has he says, is it broad? It covers all 
of Section 4 of the Refuge System Act and that appears to be 
broad to me.
    Mr. Rupert. The current approach for us to conduct NEPA 
say, for example, new or expanded hunts, includes cumulative 
impact analysis. Under our current approach we conduct that 
cumulative impact analysis, and at this point we believe we 
have a process in place that allows us to effectively meet that 
mandate.
    Mr. Grijalva. I believe that narrow/broadness issue 
particularly includes Section 4. I think as the legislation 
moves forward I think that really does need to be clearly 
defined. I don't believe it is narrow because it includes the 
whole section. It broadens it in a huge way, and that is 
problematic.
    Mr. Ratcliffe, Section 4 of H.R. 2834 appears to redefine 
the terms of Wilderness Act in such a way that would require 
the establishment of roads and the use of motorized vehicles in 
designated wilderness to facilitate hunting. Can you describe 
what impact that might have on wilderness areas, and would that 
change that fundamentally?
    Mr. Ratcliffe. The Department is very concerned about the 
wording in that provision of the act, the bill, because we feel 
that it opens the door to the potential for increased motorized 
activities and other human developments inside wilderness 
which, of course, is a slippery slope, I think, when it comes 
to the management and the integrity of the Wilderness Act.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman. The rest 
of the questions for--you know, we are talking a lot about 
exempting oil and gas in this Committee, or timber production 
from NEPA. We don't know what impact that would have on habitat 
or hunting. And if hunting is also exempt from NEPA, does that 
really help the situation? I think we need to answer these 
questions as this legislation moves forward. I appreciate your 
indulgence, and I yield back, sir.
    Mr. Broun. Thank you, Mr. Grijalva. Now the Chair will 
recognize Mr. McClintock for five minutes.
    Mr. McClintock. Thank you, Mr. Chairman. I would like to 
hear from Ms. Simpson and Ms. Recce. Do your members believe 
that the BLM and the U.S. Forest Service are encouraging and 
welcoming hunting and fishing on the 95 percent of the public 
lands we have just been told are open for that purpose?
    Ms. Recce. I would definitely say that our members who 
target shoot, and he used public lands particularly in the 
West, which is the only place to shoot, find that they are 
being dislocated; that there are shooting areas closed. 
Shooting ranges that have been built have been closed, and 
there has not been really a proactive effort on the part of 
the--in this case the Forest Service--to rectify those 
situations.
    Mr. McClintock. What is your beef? We have just been told 
that 95 percent of these lands are open for that purpose?
    Ms. Recce. Well, they can be open. It is getting to them. 
So how far do you go back in to engage in the recreational 
activity?
    Mr. McClintock. Well, can't you drive in? Aren't there 
roads?
    Ms. Recce. Well, many of these places there are not roads 
and----
    Mr. McClintock. There were roads once though, weren't 
there, but they are closing them?
    Ms. Recce. Well, they are doing that, and I think that 
access is one issue. I think the opportunities that had existed 
are closing, and a lot of it is because I don't think there is 
proactive planning for these activities to protect them into 
the future.
    Mr. McClintock. Ms. Simpson, are your members being 
welcomed and encouraged to participate in hunting and fishing 
activities on the public lands by these agencies?
    Ms. Simpson. I think that the SCI members would maintain 
that the issue for our organization is more to the habitat 
management, an active management that is not occurring on the 
public lands, and active management, as the scientists have 
told us, has a direct relationship on healthy animals.
    Mr. McClintock. Well, what is the impact of hunting and 
fishing activities by the road closures under the travel 
management plans?
    Ms. Simpson. Well, obviously----
    Mr. McClintock. They are radical in my area, I mean. They 
are closing down most of the roads, most of the access to the 
public lands in my region.
    Ms. Simpson. Access is number one priority.
    Mr. McClintock. I am wondering if you are deer hunting and 
you kill a deer, how are you supposed to get it out if you 
can't get your vehicle there?
    Ms. Recce. I am very familiar with the travel management 
plans and share the pain of your constituents. It is catch as 
catch can at the local level as to whether travel management 
plans they allow big game retrieval off of designated routes, 
and it really is whatever the local land manager decides to do.
    Mr. McClintock. Our hunters have been told they can't take 
their vehicles even one car's length off the few roads that are 
remaining.
    Ms. Recce. This is probably true, and that is why we 
support this bill because right now there is no consistency 
across the board in how decisions are done that would affect 
hunters and anglers, and there really is no consideration given 
to what effect these decisions have, and that is why we support 
another provision of the bill that addresses that.
    Mr. McClintock. What about the increasingly Draconian 
restrictions on camping? Are you hearing from your members on 
that because I got an ear full about a month ago?
    Ms. Recce. I cannot answer that because the constituency 
hasn't spoken to that. I don't know.
    Ms. Simpson. We haven't heard necessarily about camping, 
but I think the bigger point by both of our organizations that 
are here supporting this legislation is that there is such an 
inconsistency at the local level, and despite White House 
conferences and executive orders and internal memoranda and 
Federal advisory committees, et cetera, that has been 
established to have communication it just isn't happening.
    Mr. McClintock. So you are welcome to hunt on the public 
lands, but you are not allowed to get there and you are not 
allowed to stay there if you do get there.
    Ms. Simpson. That is what we are hearing.
    Mr. McClintock. That is what I am hearing, too. There is a 
radical leftist ideology that the public should be forced out 
of all rural areas and be restricted instead to dense urban 
cores. The rest of these vast tracks of land are to be restored 
to their pristine prehistoric condition. The only problem I 
have discovered with that is that most people don't like to 
live in dense urban corridors, and in order to restore the 
planet to its pristine prehistoric condition we have to restore 
the human population to its pristine prehistoric condition 
which is not going to end well.
    Are you seeing that ideology leak into the policies of this 
Administration?
    Ms. Recce. I think that I will say that in the documents we 
have seen, the Forest Service planning rule, the Fish and 
Wildlife Service vision document, that a lot of the attention 
is paid on wildlife management and natural resource management, 
which is a good thing, but it is coming at the expense of, you 
know, the traditional public land users, the hunters, the 
anglers, the shooters. That is what I have seen is an 
imbalance.
    Mr. McClintock. I think Gifford Pinchot summed that up very 
nicely when he said that the vision for the U.S. Forest Service 
was to manage the forests to achieve the greatest benefit for 
the greatest number in the long run, and this group has gotten 
so radically away from that initial vision. It is a difference 
between night and day. Thank you.
    Mr. Broun. Thank you. Now the Chair will recognize Doc 
Benishek for five minutes.
    Mr. Benishek. I would like to thank the additional members 
for being here today. I appreciate your testimony.
    Mr. Horn, we have had some testimony on the effects that 
the bill has on the Wilderness Act and how it is going to allow 
access by motor vehicles and all that, and in my reading of the 
bill I don't see that. What is your interpretation of that?
    Mr. Horn. Mr. Chairman, Representative, I think that that 
is a red herring. I don't think that is the intent. Without 
delving too deeply and taking up the Committee's time on the 
lawsuits, the Wilderness Act provisions in our understanding 
have been drafted to essentially restore agency discretion, and 
the state of the law that existed regarding 1964 Wilderness Act 
for the first 40 years of its existence. That statute has 
provisions that talk about wilderness purposes being 
supplemental to the purposes of the underlying refuge or forest 
status. There are provisions in the law that allowed the 
agencies to make certain necessity determinations to allow a 
variety of recreation and fish and wildlife conservation 
activities. Those things were fairly well implemented for a 
long period of time until the Ninth Circuit kicked things off 
the track by changing the law by judicial fiat and it started 
with a case in Alaska involving the refuge system where a long-
established fishery's enhancement program on Tustumena Lake was 
declared to be in violation of the Wilderness Act and 
terminated overturning the professional judgment of the Fish 
and Wildlife Service.
    Then there was the High Sierra case in which the Forest 
Service permitted horseback trips, we are not talking 
motorized, horseback trips into part of the Sierra wilderness, 
and the Ninth Circuit said, no, it did not have to defer to 
professional judgment of the Forest Service, and it said that 
the Forest Service hadn't demonstrated that these horseback 
trips were really necessary for wilderness management.
    Then just recently the Ninth Circuit did it again 
overturning another decision of the Fish and Wildlife Service 
involving desert big horn sheep conservation in the Kofa Refuge 
saying, no, this is a wilderness area first, and a refuge 
second. It doesn't matter that the plan approved by the Service 
helped the wildlife wilderness trumped it.
    The provision in my book reverses that decision, restores 
the discretion that these two agencies had for the first 40 
years of the Wilderness Act; tells the Ninth Circuit, no, 
judges do not substitute their judgment for that of the 
professional land managers, and puts the law back to the way it 
was. It does not deal with motorized vehicle access. That is a 
red herring. And if it is not a red herring, our organization 
is more than willing to tweak the language to make that red 
herring go away.
    Mr. Benishek. Thank you. Last night we heard a lot about 
jobs and jobs plans. One thing we don't talk about too often is 
that hunting and fishing, particularly on Federal lands, are 
job creators. Ms. Simpson, can you comment on the jobs created 
by making Federal lands guaranteed to be open to hunting and 
fishing?
    Ms. Simpson. First of all, the active management that is 
required to have healthy habitats is something that is a job 
creator right there. Whether or not it is coming from the 
timber industry or oil and gas isn't the point. The point is we 
need healthy habitats, OK?
    So, as I referred to earlier, H.R. 1581 is a wonderful 
example of a way to get active management back into our Federal 
lands. The hunting and fishing aspect on Federal lands access 
there is of vital importance. The gateway communities that 
benefit from the hotels, the motels, the restaurants, all of 
the equipment that is purchased on the way into town and out of 
town is all beneficial to job creation.
    Mr. Benishek. Thank you. Let me ask Mr. Ratcliffe a 
question. Do you explicitly include hunting and fishing in your 
management plans?
    Mr. Ratcliffe. Management plans are developed based on the 
issues of a particular area in which the plan oversees. And so 
if the issue comes up, whether it is any recreational activity, 
then we are obliged to address it in the plans, and therefore 
where it is an issue where the public identifies it and wishes 
it to be addressed we treat it equally among all recreation 
activities.
    Our multiple-use management mandate requires us to treat 
all uses equally, and if you start setting one as a priority 
over another----
    Mr. Benishek. I understand that, but I just wanted to know 
if explicitly in the plan there was something about hunting and 
fishing.
    Mr. Ratcliffe. Yes, we have many plans that address hunting 
and fishing.
    Mr. Benishek. All right. Well, I see my time is up. Thank 
you.
    Mr. Broun. Thank you, Doctor.
    Just want to say in closing that not only do I appreciate 
you all being here, but I think both of these bills are 
extremely important. My bill requires hunting to be a part of a 
management plan statutorily so that it is not an elective 
process, and it has to be considered, and then your bill, which 
is extremely necessary also, actually puts into place 
statutorily that hunting and fishing is a land use, and so I 
think both bills are so extremely important. I look forward as 
these two bills go forward, hopefully we can get them passed 
into law in this Congress.
    I appreciate your introducing the bill and I look forward 
to seeing how this Committee as well as the Full Committee 
takes all three of these bills into consideration. I thank you 
all for participating in this hearing today. But I really 
appreciate you all being here. I apologize for the interruption 
and it is well into lunchtime.
    Before we adjourn the hearing I ask unanimous consent that 
the statement by William Meadows of the Wilderness Society be 
included in the record. Hearing no objection, so ordered.

    [The prepared statement of William Meadows follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Mr. Broun. Thank you all so much. If there is no 
further business, without objection the Subcommittee stands 
adjourned.
    [Whereupon, at 12:49 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
